<html>
<title> - AN INTEGRATED NATIONAL ALL-HAZARDS ALERT SYSTEM</title>
<body><pre>[Senate Hearing 109-1095]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1095
 
                  AN INTEGRATED NATIONAL ALL-HAZARDS 
                              ALERT SYSTEM

=======================================================================


                                HEARING

                               before the

           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 27, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                  U.S. GOVERNMENT PRINTING OFFICE
62-408                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director
                                 ------                                



           SUBCOMMITTEE ON DISASTER PREVENTION AND PREDICTION

JIM DeMINT, South Carolina,          E. BENJAMIN NELSON, Nebraska, 
    Chairman                             Ranking
TED STEVENS, Alaska                  MARIA CANTWELL, Washington
GORDON H. SMITH, Oregon              BILL NELSON, Florida
DAVID VITTER, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 27, 2005....................................     1
Statement of Senator DeMint......................................     1
Statement of Senator E. Benjamin Nelson..........................     2
Statement of Senator Stevens.....................................    17

                               Witnesses

Hoover, Reynold N., Director, Office of National Security 
  Coordination, Federal Emergency Management Agency (FEMA), 
  Department of Homeland Security................................     4
    Prepared statement...........................................     6
Lawson, John M., President/CEO, Association of Public Television 
  Stations.......................................................    26
    Prepared statement...........................................    28
Guttman-McCabe, Christopher, Assistant Vice President, Homeland 
  Security and Regulatory Policy, CTIA--The Wireless 
  Association<SUP>TM</SUP>.......................................    32
    Prepared statement...........................................    33
Moran, Kenneth, Acting Director, Office of Homeland Security 
  Enforcement Bureau, Federal Communications Commission (FCC)....     8
    Prepared statement...........................................     9
Paese, Mark, Director, Maintenance, Logistics and Acquisition 
  Division, National Weather Service, National Oceanic and 
  Atmospheric Administration (NOAA)..............................    12
    Prepared statement...........................................    14
Taylor, Richard, Executive Director, North Carolina Wireless 911 
  Board; Chairman, the COMCARE Alliance and E-911 Institute; 
  Partner, the National Emergency Alerting and Response Systems 
  Initiative (NEARS).............................................    37
    Prepared statement...........................................    38

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    55


            AN INTEGRATED NATIONAL ALL-HAZARDS ALERT SYSTEM

                              ----------                              


                        WEDNESDAY, JULY 27, 2005

                               U.S. Senate,
Subcommittee on Disaster Prevention and Prediction,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Jim DeMint, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Good morning. I want to thank everyone for 
coming. We've got other Members, including our Ranking Member, 
on the way, but, in deference to those who are here, let's get 
started with this hearing.
    Somewhere in America today, a community will likely be 
impacted by a disaster, be it an accidental manmade disaster or 
a natural disaster of some sort. And as the tragic events in 
Britain and Egypt have shown us, the threat of a terrorist 
disaster still looms large. Regardless of the nature or scale 
of these disasters, the Nation's emergency responders need the 
capability to promptly and effectively communicate with the 
citizens in their communities.
    For a number of years, America has employed a variety of 
alerting methods; most notably, the Emergency Broadcast System 
and the NOAA Weather Radio. These systems have saved numerous 
lives. But in this increasingly wired and wireless world, we 
need to be aware that if we're going to communicate more 
effectively with citizens, we need to look hard at modernizing 
and improving the system. This means moving beyond the 
hodgepodge of alerting technologies that are spread throughout 
Federal agencies. It will mean increasing coordination with 
state and local governments, beyond what we do today. It will 
require the Federal Government to move out of the analog era 
and embrace the digital revolution.
    This will not be the work of the Federal Government, alone. 
If this system is truly to be an effective tool to alert the 
public, it must continue to embrace the public-private 
partnership that has served the system well in the past.
    For the past five decades, the public alert system has 
effectively separated the generation of alerts from the actual 
dissemination of alerts. It has always been, and should 
continue to be, the responsibility of the government to assess 
the threat and generate an alert. This is clearly a core 
responsibility of the local, State, and Federal governments, 
and there should be no liability for carriers who transmit 
these alerts to citizens.
    The actual distribution of the alerts should remain with 
the private sector. The broadcasting community has been 
extremely cooperative with governments in delivering alerts. 
Their cooperation has been a true public service. I am 
optimistic this cooperation will continue as the next-
generation system develops.
    I'm looking forward to the testimony of our witnesses this 
morning. Appearing before the Committee this morning are 
representatives of the Federal Emergency Management Agency, the 
Federal Communications Commission, and the NOAA Weather 
Services to discuss how the various agencies of the Federal 
Government are working together to improve the Federal 
Government's alerting capabilities and to improve the current 
analog system.
    I'm also looking forward to the comments of our private-
sector witnesses. As I mentioned earlier, the private sector is 
going to play an essential role in making sure the system 
works. I'm interested in getting an assessment from the 
cellular industry on how we can work with them to ensure their 
subscribers are alerted to potential threats. I'm also looking 
forward to reviewing the capabilities of the DTV towers to 
transmit data and information to our communities in a time of 
crisis. Finally, it's the first-responders who are going to be 
charged with responding to a crisis, and I look forward to 
hearing from them on what type of tools they need to 
communicate with the public.
    This hearing is essential. The Committee is moving forward 
with developing a National All-Hazards Alert System. 
Legislation is being developed now. The system is too important 
to the Nation not to get it right. The input of today's 
witnesses will provide us with the guidelines for a system that 
will serve the Nation well. When we get the system right, it 
will help protect our citizens from the threat posed by natural 
and manmade disasters.
    With that, I yield to my Ranking Member for any opening 
comments he may have, and then I'd like to introduce our first 
panel of witnesses.

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Ben Nelson. Thank you, Mr. Chairman.
    First, I want to thank you for bringing together the 
witnesses and calling this hearing today. I want to thank all 
the witnesses, as well. It's an important issue, as the 
Chairman has indicated, and I appreciate your taking time to be 
here today to enlighten us.
    When our Nation's system of alerts was first established, 
it was in response to the threat of a possible attack from 
another nation. Now, today Americans rely on a patchwork of 
largely voluntary systems to inform them of a range of hazards, 
from thunderstorms and tornadoes, to AMBER Alerts, to acts of 
terrorism.
    While several efforts are currently underway by various 
government agencies to make this system of public warnings more 
useful and timely, we're still relying on this patchwork of 
technologies and methods of dissemination. To be effective, 
though, a warning system must be able to detect a hazard, 
disseminate a warning, and suggest a response in a timely 
fashion. For predictable long-lead-time hazards, like 
hurricanes, the current warning system seems to be relatively 
effective. But for hazards with little or no lead time, like a 
tsunami or tornadoes or acts of terrorism, we must ensure that 
the delivery of emergency alerts is both effective and timely.
    In addition, the systems used to transmit these warnings 
must be reliable and include redundant facilities to ensure 
that notification is not disrupted or hampered by inadequate 
systems or damage to infrastructure.
    Chairman DeMint, I thank you for this hearing, and I look 
forward to hearing more about what our Federal agencies are 
doing to better coordinate their efforts to make these warning 
systems more robust and cohesive. I think it's important that 
we be aware of our shortcomings, at the same time, though, in 
this area.
    This hearing will, hopefully, help us to learn more about 
what Congress can do to help all of you who are working to make 
sure that we have these systems and help deliver the best 
warning system possible. I hope this hearing will focus our 
attention on what technologies we can, and should, be taking 
advantage of to ensure the safety of our citizens. But, at the 
same time, I hope we will not become so enamored by the most 
cutting-edge advanced technologies that we forget the common-
sense things that we can do to make sure that warnings reach 
all people, whether we're in a large metropolitan area or 
someone working in a cornfield.
    I look forward to the testimony, and I'm anxious to hear 
the witnesses.
    Thank you very much, Mr. Chairman.
    Senator DeMint. Thank you, Senator Nelson.
    Appearing before the Subcommittee this morning is Mr. 
Reynold Hoover. Mr. Hoover is the Director of the Office of 
National Security Coordination at FEMA. Mr. Hoover's office is 
the program manager for the Integrated Public Alert and Warning 
System Project, and he will be discussing the result of phase 
one of the project, and plans for phase two.
    Joining him is Mr. Mark Paese, Director of Maintenance, 
Logistics, and Acquisition Services at the National Weather 
Service. Mr. Paese will be discussing the NOAA Weather Radio 
System and NOAA's work to improve and modernize the system.
    Finally, on this panel is Mr. Kenneth Moran, and he's the 
Acting Director of the Office of Homeland Security at the 
Federal Communication Commission. Mr. Moran will discuss the 
Commission's recent notice of proposed rulemaking on 
improvements of the Emergency Alert System and the comments the 
Commission has received.
    With that, I'll start with Mr. Hoover. Mr. Hoover, if you 
will please provide a short summary. These lights will be your 
guide. I think you have 5 minutes. And the red lights indicates 
you might be going over. And we will appreciate your comments. 
Thank you.

           STATEMENT OF REYNOLD N. HOOVER, DIRECTOR,

           OFFICE OF NATIONAL SECURITY COORDINATION,

          FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA),

                DEPARTMENT OF HOMELAND SECURITY

    Mr. Hoover. Thank you, Mr. Chairman.
    Good morning, Chairman DeMint and members of the Committee. 
My name is Reynold Hoover. I'm the Director of the Office of 
National Security Coordination in the Federal Emergency 
Management Agency, FEMA, which, as you know, is a part of the 
Department of Homeland Security.
    Thank you for the opportunity to appear before you today to 
discuss the role and activities in the Department of Homeland 
Security and FEMA to support the important mission of public 
alert and warning using an Integrated Public Alert and Warning 
System, or IPAWS, approach. FEMA, through my office, serves as 
the Lead Agent for the Federal Government's continuity of 
operations and continuity of government programs, as the 
Executive Agent for the national-level Emergency Alert System, 
or EAS, and the Department's Program Manager for the Integrated 
Public Alert and Warning System Initiative.
    This morning, I'd like to take a few moments to tell you 
how the Department and our partners are improving and building 
an enhanced capability to provide nationwide all-hazards alert 
and warning using digital and other cutting-edge technologies 
in an integrated and coordinated manner.
    The current EAS system is designed to provide the President 
the capability to transmit to the nation, within 10 minutes, 
from any location at any time. State and local emergency 
managers can, and do, activate the EAS for state and local 
public alert and warning messages, such as AMBER Alerts, 
hazardous-material incidents, and severe weather warnings.
    With that as a point of reference, let me briefly describe 
to you and the Committee our efforts toward building a next-
generation, all-hazards alert and warning system.
    This fiscal year, we began a digital alert and warning 
system pilot in the national capital region with the 
Association of Public Television Stations. Significantly, 
through the voluntary cooperation and full participation of 
public and commercial broadcasters, satellite radio, the 
cellular telephone industry, technology developers, pager 
service providers, cable operators and others, we have 
successfully demonstrated an ability to transmit a variety of 
alert and warning messages via digital television and satellite 
to a full range of retransmission medium using a common 
alerting protocol. We are especially pleased that NOAA and the 
FCC have been full partners with us in this digital alert and 
warning pilot.
    This pilot has enabled us to establish a foundation for a 
unified national all-hazards system and, building upon the 
success in the national capital region, we're moving the 
digital EAS pilot into a second phase of testing and 
development to demonstrate a national capability, identify 
technological challenges, and develop a nationwide 
implementation plan.
    Because the next-generation national warning system must 
incorporate an ability to deliver a message to a precise group, 
we have partnered with NOAA to pilot a Geo-Targeted Alerting 
System, called GTAS, under the IPAWS umbrella to demonstrate 
the ability to provide geographically-targeted warnings.
    Mr. Chairman, our IPAWS solution recognizes the ubiquity of 
the Internet and the powerful tool it can be in our national 
toolbox of alert and warning systems. In that regard, we are 
finalizing a cooperative agreement with the National 
Association of State Chief Information Officers to pilot an 
AMBER-Alert-like portal for all-hazards alert and warning. This 
effort will build upon the success and lessons learned that the 
Department of Justice has demonstrated in providing an 
effective web-portal solution for its AMBER Alert Program.
    In order to assure connectivity for Presidential emergency 
messages, we are upgrading the Primary Entry Point, or PEP, 
system as part of the IPAWS to a satellite distribution system, 
and we'll be expanding the number of PEP broadcast stations so 
that each state and territory will have a direct satellite-
receive capability. By leveraging public-private partnerships, 
these critical upgrades will ensure the survivability of radio 
broadcast systems in the event of a catastrophic attack on the 
homeland.
    And we recognize, Mr. Chairman, that there is no single 
solution set that will meet everyone's alert and warning 
requirements. That's why we are seeking the most appropriate 
interoperable solutions to develop the Integrated Public Alert 
and Warning System approach.
    We believe that IPAWS, using digital technology, in 
combination with upgraded Primary Entry Point EAS capabilities, 
will provide Federal, state, and local emergency managers and 
leaders with the tools they need to protect America from both 
manmade and natural disasters. But, more importantly, the IPAWS 
solution is intended to complement, not compete or interfere 
with, existing alert and warning systems. Moreover, the IPAWS 
is based upon the premise of providing alert and warning 
messaging in a coordinated manner over as many platforms as 
possible to ensure the widest public dissemination and receive 
capabilities.
    Of equal importance, we are reaching out to stakeholders 
and alert and warning system users through a series of IPAWS 
seminars. Significantly, our most recent seminar included 
representatives from the disabled community who told us about 
the challenges they face with regard to alert and warning. As 
we continue that dialogue, we will incorporate their concerns 
with IPAWS solutions.
    Mr. Chairman, these are just some of the examples of how 
FEMA and the Department of Homeland Security have taken 
seriously its responsibility to ensure quick and accurate 
dissemination of alert and warning information to our homeland 
security partners and to the American public.
    Thank you, again, for the invitation to speak and for your 
support of the Department's mission and for your interest in an 
effective next-generation all-hazards alert and warning system. 
And I'll be pleased to answer any questions you may have.
    [The prepared statement of Mr. Hoover follows:]

 Prepared Statement of Reynold N. Hoover, Director, Office of National 
  Security Coordination, Federal Emergency Management Agency (FEMA), 
                    Department of Homeland Security
    Good morning, Chairman DeMint and members of the Committee. I am 
Reynold N. Hoover, the Director of the Office of National Security 
Coordination (ONSC) within the Federal Emergency Management Agency 
(FEMA). Thank you for the opportunity to appear before you today to 
discuss the role and activities of the Department of Homeland Security 
and FEMA to support the important mission of public alert and warning 
using an Integrated Public Alert and Warning System (IPAWS) approach.
    FEMA, through my office, serves as the lead agent for the Federal 
Executive Branch's Continuity of Operations (COOP) and Continuity of 
Government (COG) programs and as the Executive Agent for the national-
level Emergency Alert System (EAS). Our office also functions as the 
Department's Program Manager for the IPAWS initiative of which EAS is a 
component. As such, we are working in close cooperation with the 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
to facilitate coordinated efforts within the Department. I also serve 
as one of the managing Co-Chairs of the White House Task Force on 
Effective Warning that was chartered by the Office of Science 
Technology and Policy and Homeland Security Council. This recently 
established Task Force has representation from key public alert and 
warning stakeholders in the Federal Executive Branch and is Co-Chaired 
by the National Oceanic and Atmospheric Administration (NOAA). On all 
of these public alert and warning initiatives, we share close 
relationships with the Federal Communications Commission (FCC) which 
generally regulates EAS technical standards, procedures and protocols, 
and with NOAA which is a primary EAS user.
    We appreciate the Alert and Warning funds Congress has provided to 
the Department to improve our alert and warning capabilities. Your 
funding will help us provide Americans with critical and timely 
information alerts and warnings that will save lives and property. This 
morning I would like to take a few moments to tell you about the EAS 
and IPAWS which is the foundation upon which the Department is 
improving, and building, an enhanced capability to provide nationwide 
alert and warning using cutting edge technologies, in an integrated and 
coordinated manner.
    The EAS in its current form was established in 1994 and is 
essentially a cascade, trickle down, distribution system from the FEMA 
Operations Centers to 34 designated Primary Entry Point (PEP) radio 
broadcast stations. At the request of the President, we distribute a 
Presidential level message to the PEP stations, which in turn re-
broadcast the signal to monitoring stations down stream which then 
broadcast the message over TV and radios. The system is designed to 
provide the President the capability to transmit within 10 minutes from 
any location at any time. This Presidential message is mandatory, must 
take priority over any other message and must preempt other messages in 
progress. All other broadcasts of emergency messages are voluntary. 
Nevertheless, state and local emergency managers can, and do, activate 
the EAS for state and local public alert and warning messages such as 
AMBER alerts, hazardous material incidents and weather warnings. NOAA, 
and the National Weather Service, serve as the originator of emergency 
weather information, and play a significant role in the implementation 
of EAS at the state and local level. While FEMA tests on a weekly basis 
the connectivity to the 34 PEP stations, the national level EAS has 
never been fully activated.
    As you are well aware, the tragic events of September 11 caused a 
paradigm shift in how we think about homeland security and, in 
particular, alert and warning. As efficient and useful as the EAS has 
been, we in FEMA and the Department of Homeland Security realize that 
the alert and warning system that so many millions of people depend 
upon is not everything to everyone all of the time. With the alert and 
warning funding provided this year, FEMA, IAIP and our partners in the 
Federal Government are making great progress in our ability to reach 
more of the people, more of the time. We believe in a very short period 
of time, leveraging public-private partnerships and using existing 
digital and other cutting edge technologies, the Department will be 
able to provide all hazards alerts and warnings to the greatest number 
of people. This includes persons with disabilities and individuals for 
whom English is a second language.
    For example, we have been conducting a Digital Emergency Alert 
System pilot project in the National Capital Region with the 
Association of Public Television Stations. This pilot has successfully 
demonstrated how the capabilities of America's public broadcasters can 
be utilized to dramatically enhance our ability to provide the American 
people with critical, and lifesaving, information. Significantly, 
through the voluntary cooperation and full participation of public and 
commercial broadcasters, satellite radio, the cellular telephone 
industry, technology developers, pager service providers, cable 
operators, and others, we have successfully demonstrated an ability to 
transmit a variety of alert and warning messages via digital television 
and satellite to a full range of retransmission media using a common 
alerting protocol. We are especially pleased that NOAA and the FCC have 
been full partners with us in this Digital Alert and Warning System 
pilot and have recently added the Department of Justice and The Weather 
Channel to our list of pilot participants.
    Building upon the success of our Digital EAS pilot we have begun a 
second phase expansion in which we will replicate our experience in the 
National Capitol Region at other sites across the country using public 
television's existing digital infrastructure. Our intent in this second 
phase of the Digital EAS pilot is to demonstrate a national capability, 
identify technological challenges, and develop a nationwide 
implementation plan.
    Because there is no single solution set available that can provide 
for all of the alert and warning systems requirements for Federal, 
State and local users, our IPAWS uses a ``system of systems'' approach 
and does not totally rely upon the digital infrastructure of Public 
Television. Working in partnership with NOAA we are including under the 
IPAWS umbrella a Geo-Targeted Alerting System (GTAS), which uses 
reverse 911 technology, to demonstrate and test the ability to provide 
targeted warning down to the individual household or business. This 
GTAS pilot will be conducted in the National Capital Region with the 
goal of expanding alert and warning capabilities to include plume 
hazard warning.
    Since the beginning of the IPAWS initiative our focus has been 
demonstrating and developing the best technologies available without 
regard to the emergency message content. Moreover, because we are 
incorporating common alerting protocols and using digital technology we 
have better positioned a national alert and warning system to be an all 
hazards system. In this regard, the recent passage of the Intelligence 
Reform Bill directed the Department to work with the National 
Association of State Chief Information Officers (NASCIO) to demonstrate 
an Amber Alert like web portal. We have been working with NASCIO to 
finalize a Cooperative Agreement that will help us add another powerful 
dimension to the IPAWS. This effort will also build upon the successes 
and lessons learned that the Department of Justice has demonstrated in 
not only partnering with the wireless community to provide missing 
child alerts, but also providing an effective web based portal solution 
for its Amber Alert program.
    A primary mission of our office remains assuring the ability of the 
President, and senior government leaders, to address the Nation under 
the most extreme circumstances. This year, we are upgrading the Primary 
Entry Point (PEP) system from its current ground-based dial up 
capability to a satellite distribution system. We will also be 
expanding the number of PEP broadcast stations so that each state and 
territory will have a direct satellite receive capability. These 
critical upgrades will ensure the survivability of radio broadcast 
systems in the event of a catastrophic incident. Moreover, by 
leveraging public-private partnerships with satellite and public radio, 
we are able to significantly enhance the Emergency Alert System without 
a major investment in new infrastructure.
    We recognize that there is no single solution set that will meet 
everyone's alert and warning requirements, that is why FEMA, IAIP and 
the Department has teamed up with NOAA, the FCC, DOJ and the private 
sector to find the most appropriate interoperable solutions to develop 
the Integrated Public Alert and Warning System approach. We believe 
that IPAWS, using digital technology in combination with upgraded 
Primary Entry Point EAS capabilities, will provide Federal, state and 
local emergency managers and leaders with the tools they need to alert 
America about both man-made and natural disasters. At the same time we 
are aware of the concerns of our state partners who have invested in 
their own alert and warning systems. With that in mind, IPAWS is 
intended to be fully interoperable with those systems using common 
alerting protocols. As we proceed, we will continue to reach out to 
state and local users to integrate a national alert and warning system 
into their existing capabilities which will result in significant 
improvements in public awareness during hazardous events.
    Because our IPAWS framework is based upon the premise of providing 
alert and warning messaging in a coordinated manner, over as many 
platforms as possible, to ensure the widest dissemination and public 
receive capabilities, the Department of Homeland Security is also 
providing funds to NOAA for system upgrades to the NOAA Weather Radio 
All Hazards network. In addition, in partnership with the Department of 
Education and the Department of Commerce, IAIP is funding a pilot 
program to purchase NOAA Weather Radio All Hazards receivers for 
certain public schools across the Nation. We are also reaching out to 
the many stakeholders and alert and warning systems users through a 
series of IPAWS seminars. Our first seminar was conducted in April and 
brought together Federal, state, local, and private sector groups to 
begin a dialog with us on IPAWS. Significantly, the seminar attendees 
included representatives from the disabled community who told us about 
the challenges they face with regard to alert and warning. We are 
continuing that dialogue and working to incorporate their concerns with 
IPAWS solutions. The Department, and our Federal partners, will 
continue these IPAWS outreach seminars as a means to educate the public 
and ensure we are adding needed alert and warning capabilities--not 
adding another burden on those who use and depend upon such systems to 
save lives and protect property.
    We are pleased that the FCC, last year, issued a Notice of Proposed 
Rulemaking with regard to the Emergency Alert System. We believe that 
the FCC's efforts in this matter will help us strengthen and improve 
alert and warning for the general public and we look forward to 
continuing our close cooperation with the Commission as they move 
toward a decision.
    Finally, Mr. Chairman, the Task Force on Effective Warning that I 
mentioned at the outset of my remarks is working to develop a national 
alert and warning policy that recognizes the IPAWS solution. Moreover, 
with the help of the Department of the Interior's USGS, and other 
emergency message originators in the Federal Government, we will be 
able to build upon their experiences and capabilities to incorporate 
tsunami, earthquake and other warnings to the public into a national 
all hazards IPAWS.
    Mr. Chairman these are just some examples of how FEMA and the 
Department of Homeland Security has taken seriously its responsibility 
to ensure the quick and accurate dissemination of alert and warning 
information to our homeland security partners and the American public.
    Thank you again for the invitation to speak, for your support of 
the Department's mission, and for your interest in effective alert and 
warning systems. I will be pleased to answer any questions you may 
have.

    Senator DeMint. Thank you, Mr. Hoover. We'll save our 
questions until the panel has completed their statements.
    Mr. Moran?

          STATEMENT OF KENNETH MORAN, ACTING DIRECTOR,

        OFFICE OF HOMELAND SECURITY, ENFORCEMENT BUREAU,

            FEDERAL COMMUNICATIONS COMMISSION (FCC)

    Mr. Moran. Good morning, Mr. Chairman and Senator Nelson. 
I'm Kenneth Moran, Acting Director of the Enforcement Bureau's 
Office of Homeland Security at the Federal Communications 
Commission. I welcome this opportunity to appear before you to 
discuss the FCC's activities regarding the Emergency Alert 
System.
    For over 50 years, the United States has had a mechanism in 
place to allow the President to communicate with the public in 
the event of a national emergency. Currently, that mechanism is 
the Emergency Alert System, or EAS.
    Under our EAS rules, radio, television, and cable systems 
are required to deliver Presidential-level emergency messages. 
In addition, EAS has been used on a voluntary basis for 
delivery of State and local emergency messages.
    Today, we face new homeland security threats and 
challenges, and the Commission is acutely aware of the 
importance to the American public of timely and effective 
emergency warnings. In addition, in recent years, there have 
been many important advancements in communications technologies 
that may afford opportunities for improving EAS.
    As a result, EAS has been the subject of an extensive 
examination to ensure that we do our part to contribute to an 
efficient and up-to-date public alert and warning system. The 
Commission is conducting a rulemaking proceeding to consider 
whether EAS is the most effective way to warn the American 
public of an emergency; and, if not, how the system can be 
improved. Because this proceeding is ongoing, my comments in 
this hearing are limited to the record that has developed so 
far.
    In its rulemaking proceeding, the Commission raised broad 
questions regarding whether EAS's capabilities are consistent 
with the Commission's mission to ensure that the public warning 
system takes full advantage of current and emerging 
technologies. Specifically, the Commission sought comment on 
whether EAS should be adapted or redesigned to take advantage 
of digital, satellite, and other wireless technologies.
    What we've learned is that most parties advocate improving 
the existing system rather than completely redesigning it. The 
Commission also raised the issue of whether the voluntary 
nature of EAS at the state and local levels remains appropriate 
in today's world. Some of the commentors argue that it should 
be mandatory; others have suggested that voluntary 
participation by media to deliver state and local emergency 
messages has proven to be effective and should be allowed to 
continue.
    We also asked comment on a number of other issues, such as 
the respective roles of the Federal departments and agencies 
involved in the implementation of EAS, the security of the 
public warning system, improvements to the testing of the 
program, how a public warning system can most effectively 
provide emergency warnings to the disabled community and to 
those for whom English is a second language. Indeed, a key 
focus of our work is how to reach each and every citizen with 
the right emergency-alert warning information at the right 
time. The FCC has, and will continue to, coordinate with the 
Department of Homeland Security, FEMA, NOAA, and others as we 
examine these issues. We anticipate that our Federal partners 
will continue to be active participants in our proceeding, and 
we also expect to continue to receive valuable input from 
interested individuals, state and local emergency management 
agencies, tribal governments, and various elements of the 
communications sector.
    And we look forward to working with the Congress, Federal, 
state, and local emergency managers, industry, and the public 
to ensure that we can provide an effective warning system to 
the American people.
    I thank you, Mr. Chairman, for the opportunity to appear. 
This concludes my testimony. I'd be happy to answer any 
questions that you or the other Members may have.
    Thank you.
    [The prepared statement of Mr. Moran follows:]

    Prepared Statement of Kenneth Moran, Acting Director, Office of 
     Homeland Security Enforcement Bureau, Federal Communications 
                            Commission (FCC)
Executive Summary
    Since the Cold War era, the United States has had a mechanism in 
place for the President of the United States to communicate with the 
public in the event of a national emergency. Under the current 
Emergency Alert System (EAS), all analog broadcast radio, television, 
and cable systems are required to deliver a Presidential-level 
activation of EAS, but their use of EAS in response to State and local 
emergencies, while encouraged, is voluntary.
    In light of today's homeland security threats, the Federal 
Communications Commission (Commission) remains acutely aware of the 
importance of timely and effective warnings. In addition, there are 
exciting changes in our communications media that may allow for 
improvements in our warning systems. As a result of these changes, EAS 
has recently been the subject of much examination. To ensure that the 
Commission does its part to contribute to an efficient and 
technologically current public alert and warning system, the Commission 
is conducting a rulemaking proceeding to consider whether the current 
EAS is the most effective way to warn the American public of an 
emergency and, if not, how the system can be improved.
    As part of the current EAS proceeding, the Commission raised broad 
questions about whether the technical capabilities of EAS are 
consistent with the Commission's mission to ensure that public warning 
systems take full advantage of current and emerging technologies, 
particularly digital broadcast and wireless telecommunications media. 
For instance, the Commission noted that some parties argue that the 
purely voluntary nature of EAS at the state and local level results in 
an inconsistent application of EAS as an effective component of an 
overall public alert and warning system. The Commission also is 
considering issues such as what the respective roles of the Federal 
Government departments and agencies involved in the implementation of 
EAS should be, how the delivery pipeline for public warning can be made 
more secure and how it can be tested, how both emergency managers and 
the public can use and respond to a public warning system in the most 
effective manner, and how a public warning system can most effectively 
provide emergency warnings to the disabled community and those for whom 
English is a second language. Indeed, a key focus of the Commission's 
inquiry is how to reach each and every citizen.
    The Commission has coordinated closely with the Department of 
Homeland Security (DHS) and its component, the Federal Emergency 
Management Agency (FEMA), and with the National Oceanic and Atmospheric 
Administration (NOAA) and its component, the National Weather Service 
(NWS). The Commission values these agencies' continued participation in 
our review of EAS.
    The Commission looks forward to working with Congress, our 
colleagues at other Federal, state and tribal agencies, and the public 
to ensure that it can provide such a warning system to our citizens.
Introduction
    Mr. Chairman and Members of the Subcommittee:
    Good morning. I am Kenneth Moran, Acting Director of the Federal 
Communications Commission (Commission) Enforcement Bureau's Office of 
Homeland Security. I welcome this opportunity to appear before you to 
discuss the Emergency Alert System, or EAS.
    The Commission is well aware that an effective public alert and 
warning system is an essential element of emergency preparedness, and 
that such a system is impossible without effective communication and 
coordination within the Federal Government, as well as with the active 
participation of the states and the private sector. Accordingly, the 
Commission has been working with other Federal agencies, state 
governments, and industry to ensure that the American public is 
provided with a robust, efficient, and technologically current alert 
and warning system.
Background
    The forerunner of our current Emergency Alert System originated in 
the early days of the Cold War when President Truman established the 
``CONELRAD `' system as a means to warn the public of an imminent 
attack. Since that time, CONELRAD has given way to the Emergency 
Broadcast System, which in 1994 was replaced by EAS. From the early 
CONELRAD days to the present, the Commission has played a critical role 
in ensuring that the President of the United States would be able to 
communicate with the American public in the event of a national 
emergency. Today's EAS uses analog radio and television broadcast 
stations, as well as wired and wireless cable systems, to deliver a 
national Presidential message. When activated, EAS would override all 
other broadcasts or cable transmissions, national and local, to deliver 
an audio Presidential message. This system is mandatory at the national 
level, but is also available on a voluntary basis for states and 
localities to deliver local emergency notifications.
    The Commission, in conjunction with the Federal Emergency 
Management Agency (FEMA) and the National Weather Service (NWS), 
implements EAS at the Federal level. Our respective roles currently are 
based on a 1981 Memorandum of Understanding between FEMA, NWS, and the 
Commission, on a 1984 Executive Order, and on a 1995 Presidential 
Statement of Requirements.
    The Commission's EAS rules are focused on national activation, and 
the delivery of a Presidential message. The Commission's rules 
prescribe: (1) technical standards for EAS; (2) procedures for radio 
and television broadcast stations and cable systems to follow in the 
event EAS is activated; and (3) EAS testing protocols. Under the rules, 
national activation of EAS for a Presidential message is designed to 
provide the President the capability to transmit from any location at 
any time within 10 minutes of the system's activation, and would take 
priority over any other message and preempt other messages in progress. 
Currently, only analog radio and television stations, and wired and 
wireless cable television systems, are required to implement the 
national EAS. Other systems, such as digital television (DTV), Direct 
Broadcast Satellite television (DBS), Low Earth Orbit (LEO) satellite 
systems, paging, Satellite Digital Audio Radio Service (SDARS), and In-
Band-On-Channel Digital Audio Broadcasting (IBOC DAB) are currently not 
required to participate in EAS.
    The decision to activate the national-level EAS rests solely with 
the President. FEMA acts as the White House's executive agent for the 
development, operations, and maintenance of the national level EAS and 
is responsible for implementation of the national level activation of 
EAS, as well as EAS tests and exercises.
    EAS is essentially a hierarchical distribution system. FEMA has 
designated 34 radio broadcast stations as Primary Entry Point (PEP) 
stations. At the request of the President, FEMA would distribute the 
``Presidential Level'' messages to these PEP stations. The PEP stations 
are monitored in turn by other stations in the hierarchical chain. 
Commission rules require broadcast stations and cable systems to 
monitor at least two of the EAS sources for Presidential alerts that 
are specified in their state EAS plans. Initiation of an EAS message, 
whether at the national, state, or local level, is accomplished via 
dedicated EAS equipment. The EAS equipment provides a method for 
automatic interruption of regular programming and is capable of 
providing warnings in the primary language that is used by the station 
or cable system.
    Along with its primary role as a national public warning system, 
EAS--and other emergency notification mechanisms--are part of an 
overall public alert and warning system, over which FEMA exercises 
jurisdiction. EAS use, as part of such a public warning system at the 
state and local levels, while encouraged, is voluntary. Nevertheless, 
the public receives most of its alert and warning information through 
the broadcasters' and cable systems' voluntary activations of the EAS 
system on behalf of state and local emergency managers.
Current Issues and the Commission's Rulemaking Proceeding
    As noted above, the public relies heavily on EAS for emergency 
information. EAS therefore serves a critical purpose, but it currently 
only applies to analog radio and television stations, and wired and 
wireless cable television systems. In August 2004, the Commission began 
a rulemaking proceeding to review whether we need to either update EAS 
or replace it with a more comprehensive and effective warning system.
    In initiating its rulemaking, the Commission encouraged commenters 
to consider recommendations from two public/private partnerships that 
have studied EAS issues extensively: the Media Security and Reliability 
Council (MSRC), an industry-led Federal Advisory Committee comprised of 
representatives from the radio, television, multi-channel video, public 
safety, and disabilities communities, and the Partnership for Public 
Warning (PPW), a not-for-profit, public/private partnership that was 
incorporated with the goal of promoting and enhancing effective, 
integrated dissemination of public warnings.
    The Commission has received comments from numerous interested 
individuals, Federal entities, State and local emergency planning 
organizations, and various sectors of the telecommunications 
industries. We have coordinated with DHS and its component, FEMA, and 
with the Department of Commerce and its component, the National Oceanic 
and Atmospheric Administration's (NOAA) National Weather Service, and 
we will continue to do so.
    The overarching question addressed in the proceeding is whether EAS 
in its present form is the most effective mechanism for warning the 
American public of an emergency, and, if not, how EAS can be improved. 
Most of the parties who commented agree that our warning system should 
be improved. Most--including MSRC and PPW--also advocate upgrading, 
rather than replacing EAS, to take advantage of the existing EAS 
infrastructure.
    The Commission's rulemaking proceeding addresses a number of 
specific and timely issues. For instance, the Commission noted that 
some parties argue that the purely voluntary nature of EAS at the state 
and local level results in an inconsistent application of EAS as an 
effective component of an overall public alert and warning system. To 
address these arguments, the Commission is examining whether permissive 
state and local EAS participation remains appropriate today, and 
whether uniform national guidelines should apply to state and local EAS 
implementation. Some parties who commented on this issue support 
continuing voluntary participation, at least for the present, while the 
Commission considers broader changes to EAS. Some parties also stated 
that participation, though voluntary, is widespread. These parties 
generally support continuing the voluntary nature of EAS
    The Commission's Notice of Proposed Rulemaking (NPRM) initiating 
the open proceeding focused on the fact that EAS is currently mandated 
only for analog television and radio, and for cable systems, which 
represent an increasingly smaller part of our information sources. The 
Commission is considering whether and how EAS obligations should be 
extended to services not currently covered--e.g., digital television 
and radio, and satellite radio and television. Many commenters support 
the Commission's efforts to extend the EAS rules to digital 
broadcasters.
    The NPRM also asked questions about whether the technical 
capabilities of EAS can or should be applied to other communications 
platforms. Along with digital broadcast, new digital wireless 
technologies, including cellular telephony and personal digital 
assistants, are rapidly redefining the communications landscape, making 
available to the public warning technologies that are far more flexible 
and effective than the analog broadcast mechanism currently employed by 
EAS. The Commission is considering whether there should be an effort to 
use such technologies to form a comprehensive national public warning 
system capable of reaching virtually everyone all the time by combining 
EAS with alternative public alert and warning systems. We received a 
number of comments about methods, such as cell phone broadcasting, that 
could expand the reach of our warning systems in the future. In their 
comments, DHS and FEMA also noted that they are investigating new 
technologies for this purpose.
    The Commission also is examining security and reliability issues 
relevant to EAS and on the important question of how best to supply an 
effective public warning system to the disabled community and non-
English speakers. The Commission is also considering the role of 
various Federal Government departments and agencies, as well as local 
authorities, in implementing EAS.
    In addition, the Commission is involved in other initiatives, 
beyond its rulemaking proceeding, to address the effectiveness of our 
Nation's warning systems. For instance, the Commission is participating 
in the Task Force on Effective Warnings Materials, a group of Federal 
departments and agencies that has been assembled to examine existing 
and planned disaster warning and communications systems, and to make 
recommendations to ensure that these systems are effective. We will 
continue to share our expertise and views, and to seek the expertise 
and views of others, on these important issues.
Conclusion
    The Commission looks forward to working with Congress, our 
colleagues at other Federal, state, and tribal agencies, and the public 
to ensure that we can provide an effective and technologically advanced 
warning system to our citizens. The Commission also is aware that the 
Congress is taking an active interest in the issue of public alert and 
warning, and stands ready to provide whatever technical assistance that 
the Congress would find helpful in this regard.

    Senator DeMint. Thank you.
    Our Chairman has joined us. Mr. Chairman, we're hearing 
from FEMA, the FCC, and getting ready to hear from Mr. Paese, 
from NOAA. They are giving us an update on the development of a 
national all-hazards alert system.
    So, Mr. Paese? Have I got that name anywhere close to being 
right?
    Mr. Paese. Perfect.
    Senator DeMint. OK.

        STATEMENT OF MARK PAESE, DIRECTOR, MAINTENANCE,

          LOGISTICS AND ACQUISITION DIVISION, NATIONAL

             WEATHER SERVICE, NATIONAL OCEANIC AND

               ATMOSPHERIC ADMINISTRATION (NOAA)

    Mr. Paese. Thank you, Mr. Chairman and members of the 
Committee.
    I am Mark Paese, Director of Maintenance, Logistics, and 
Acquisition for the National Weather Service at NOAA. I am 
pleased to be here today to discuss NOAA Weather Radio, All 
Hazards. Known as ``The Voice of the National Weather 
Service,'' NOAA Weather Radio, All Hazards, is provided as a 
public service. The NOAA Weather Radio All Hazards Network 
includes 935 transmitters covering all 50 states, adjacent 
coastal waters, Puerto Rico, the U.S. Virgin Islands, and U.S. 
Pacific territories. The nationwide network of radio stations 
provides coverage to over 97 percent of the U.S. population. 
This extensive system of radio transmitters allows the National 
Weather Service to transmit routine observations and forecasts, 
as well as alerts and warnings of severe weather and other 
hazardous information, 24 hours a day, 7 days a week.
    In June 2004, NOAA and the Department of Homeland Security 
signed an agreement providing DHS the capability to send 
critical all-hazards alerts and warnings through the NOAA 
Weather Radio Network. Now NOAA Weather Radio broadcasts 
warnings and posts that information for all types of hazards--
natural, such as earthquakes, tsunamis, hurricanes, and 
volcanic activity; manmade, such as chemical releases or oil 
spills; and terrorist alerts. NWS warnings are carefully 
developed to ensure critical information is conveyed as 
directly as possible. Each warning contains several components 
that are based on discussions with users, including the private 
sector, emergency managers, and the public. We also work with 
sociologists and others to ensure the information in our 
message is worded as clearly as possible for the public to 
understand what to do.
    While the current network works well, NOAA Weather Radio 
has some challenges. We need to ensure a fully-functioning 
network through continued maintenance, upgrading older and 
solid-state transmitters, installing backup power at locations 
without this capability, and provide the connectivity between 
alert sources and the transmitter. Existing dissemination 
systems were developed to meet specific user requirements for 
information. Warning systems must look toward the future and 
include graphical forms of information readily available 
through advanced technology, such as cell phones and PDAs.
    Future systems should also improve on existing geo-
targeting to be able to reach people where they are--work, 
home, or on the move--and reduce unnecessary warnings to people 
who are not in hazardous zones.
    Recognizing the need for a national all-hazards alert 
system, Department of Homeland Security and NOAA serve as Co-
Chairs of the White House Task Force on Effective Warnings. The 
effort was chartered by the Office of Science Technology Policy 
to develop a government-wide plan for an integrated Public 
Alert and Warning System, or IPAWS. There will be many--there 
are many warning systems across the country, and an integrated 
system of systems will be far better than any one system.
    In Fiscal Year 2004, NOAA began developing a capability to 
reduce the time it takes for an emergency manager to input a 
hazard warning into NOAA Weather Radio and reduce the 
possibility of any transcription errors. This system, known as 
HazCollect, will reduce the amount of time it takes to input a 
message into the system from 7 minutes to less than 2 minutes. 
This capability is expected to be fully operational in Fiscal 
Year 2006.
    NOAA's vision for the future is to ensure access and 
delivery of environmental warnings, forecasts, and information 
to every person in the United States. To achieve this vision, 
it is essential to use emerging technologies to make warnings 
and information available via convenient methods and formats to 
as many individuals as possible. We are working with the 
private sector to make this happen. Government and the 
emergency community must work together to develop an integrated 
Public Alert and Warning System adaptable to change.
    Standards and protocols such as Common Alerting Protocol, 
or CAP, recently agreed upon by the emergency-management 
community, is one example of how the collaboration of the 
emergency management community and the government has increased 
interoperability.
    The Department of Homeland Security, in partnership with 
NOAA and the Department of Education, is funding a pilot 
program to develop NOAA Weather Radios at public schools in the 
top urban-area security initiatives in two rural states.
    NOAA Weather Radio is a proven technology. It works, and it 
saves lives. Seven weeks ago, in Endicott, New York, the 
Principal at Charles F. Johnson Elementary School received a 
severe-thunderstorm warning on their school NOAA Weather Radio. 
He implemented his school safety plan and moved the 340 
students and faculty out of harm's way. Twenty minutes later, 
70-mile-an-hour winds ripped the roof off the kindergarten wing 
and devastated the building.
    In conclusion, NOAA Weather Radio is a proven dissemination 
network that has saved lives. We will continue to work with 
other agencies to achieve the vision to reach every person in 
the United States.
    I would be happy to answer any questions.
    [The prepared statement of Mr. Paese follows:]

Prepared Statement of Mark Paese, Director, Maintenance, Logistics and 
 Acquisition Division, National Weather Service, National Oceanic and 
                   Atmospheric Administration (NOAA)
    Mr. Chairman and members of the Committee, I am Mark Paese, 
Director of Maintenance, Logistics, and Acquisition Services for the 
National Weather Service (NWS), of the National Oceanic and Atmospheric 
Administration (NOAA) within the Department of Commerce. I am pleased 
to be here today to discuss NOAA Weather Radio All Hazards (NWR). I 
will outline how our system currently works and our vision for the 
future.
Introduction and Background
    Known as the ``Voice of the National Weather Service,'' NOAA 
Weather Radio All Hazards is provided as a public service. The NOAA 
Weather Radio All Hazards (NWR) network includes 935 transmitters, 
covering all 50 states, adjacent coastal waters, Puerto Rico, the U.S. 
Virgin Islands, and the U.S. Pacific Territories. The NWR nationwide 
network of radio stations provides coverage to over 97 percent of the 
population. This extensive system of radio transmitters allows the 
National Weather Service to transmit routine programming containing 
observations and forecasts, with this routine programming interrupted 
to broadcast alerts and warnings of severe weather and other hazardous 
information 24 hours a day. Each transmitter is automatically fed 
information from the local NWS weather office typically via telephone 
lines, while some more remote locations use microwave transmissions. It 
takes only seconds from when the forecaster hits the send button until 
the message is transmitted on the network. NWR requires a specific 
radio receiver or scanner, readily available at most electronic stores, 
capable of receiving the broadcast. This NWS direct broadcast includes 
special codes identifying alerts and warnings, with many receivers 
equipped to monitor these codes.
    NWR receivers should be as common as smoke detectors especially 
given their capability to wake people in the middle of the night when 
hazardous conditions threaten. In addition to the traditional weather 
radio that many are familiar with, NOAA Weather Radio All Hazards 
receivers can be integrated into devices to turn on alarms, lights, bed 
shakers, and other equipment especially useful for the hearing impaired 
community and those with special needs.
    Agreements with local, State, and Federal emergency managers and 
first responders, and working with the Federal Communications 
Commission's (FCC's) Emergency Alert System, allow NWR to act as a 
direct, official source for comprehensive weather and emergency 
information--an ``all hazards'' warning system. In June 2004, NOAA and 
the Department of Homeland Security signed an agreement allowing DHS to 
send critical all-hazards alerts and warnings directly through the NOAA 
Weather Radio All Hazards network, further leveraging NWR as a backbone 
of a national emergency alert and warning system. With this agreement 
in place, NWR is the only Federal Government warning system that can be 
targeted to specific areas to deliver a message from the President. 
NOAA Weather Radio All Hazards also broadcasts warning and post-event 
information for all types of hazards--both natural, such as 
earthquakes, tsunamis, hurricanes, and volcanic activity, and man made, 
such as chemical releases or oil spills. Many emergency dispatch 
centers, institutional (day care, elder care, hospitals, schools, etc), 
building and manufacturing security operations centers monitor NWR for 
emergency warning information as a public safety tool.
    NWS warnings are carefully developed to ensure critical information 
is conveyed as directly as possible, regardless of the transmission on 
NWR or any of the other dissemination systems. Each warning contains 
several components, which are included based on NWS discussions with 
users, including private sector, emergency managers, and the public. We 
also worked with sociologists and others to ensure the information in 
our messages is worded as clearly as possible for the public to 
understand what to do. The messages include appropriate ``call to 
action'' statements advising people of actions to take (seek shelter 
indoors, avoid crossing high water, etc.). The messages also contain 
critical event and geographic information for other dissemination and 
computer systems to decode and retransmit. For example, the Emergency 
Alert System (EAS) operated under FCC rules is automatically activated 
by NWR broadcasts of warnings.
Upcoming Challenges for NOAA Weather Radio All Hazards
    While our current network works well, NWR has some challenges. We 
need to ensure a fully functioning network through continued 
maintenance, upgrading older solid state transmitters, public education 
and awareness about the capabilities of the network, installing backup 
power at locations without this capability to ensure continued service 
when commercial power fails, and upgrading the telecommunication feed 
from the NWS office to the transmitter.
    The number of NWR transmitters has more than doubled in the past 
decade. Today, 935 transmitters are in operation, with three more 
scheduled to come on line by the end of the September. NWR intends to 
upgrade older transmitters to new technology standards. These upgrades 
to 400 transmitters will be completed by FY 2011. We will be increasing 
coverage to 100 percent for areas of the Nation particularly vulnerable 
to severe weather and tornadoes, such as tornado alley. Current 
projections call for meeting this goal in 2007. We also plan to provide 
backup power to all NWR stations by 2012, which includes about 440 
currently without that capability. We have a plan to provide a more 
reliable and robust communication feed directly to the transmitters. 
Converting to this new process should be complete in FY 2009.
Next Generation Warning System
    Existing dissemination systems were developed to meet user 
requirements for information. Any future warning system must go beyond 
direct radio broadcasts and include visual forms of information readily 
available through advancing technology (e.g., cell phones, Personal 
Digital Assistants, etc). Future systems should also improve on 
existing geo-targeting/referencing to be able to reach people where 
they are--home, work, or on the move--and to reduce warnings to people 
who are not in the hazardous zones.
    Hazardous weather and water forecasts, warnings, and other hazards 
information are delivered as quickly as possible using ``push'' and 
``pull'' dissemination technologies, which respectively send 
information and allow information to be retrieved. ``Push'' occurs when 
messages and information are broadcast or sent to the recipient (e.g. a 
radio is push technology). ``Pull'' technology includes mechanisms in 
which information is transmitted in response to a request from a user 
(e.g., using Internet browsers to request information).
    Push (send) capabilities distribute scheduled and unscheduled 
warnings, forecasts, and information using a predetermined priority. 
Warnings are given the highest priority. For example, NOAA Weather 
Radio All Hazards is a ``push'' technology; it provides 24-hour access 
to weather information and other all-hazards information. NWR is one 
component of the existing NWS dissemination infrastructure, which also 
includes NOAA Weather Wire Service, Emergency Managers Weather 
Information Network or EMWIN, Family of Services, and NOAAPort. Pull 
(retrieve) capabilities make warnings, forecasts, and information 
available for people to acquire as needed. The Internet is our primary 
use of a ``pull'' technology; it enables users to retrieve 
environmental information as needed from NOAA web pages and other 
locations.
    Recognizing the rapid advances in information technologies, the 
Department of Homeland Security and NOAA co-chair an effort to develop 
a government-wide plan for the Integrated Public Alert and Warning 
System (IPAWS). The government's ability to effectively warn the public 
of danger will be greatly improved by implementing IPAWS. Public safety 
is a fundamental responsibility of Federal, state and local 
governments. Public warnings save lives by informing, reducing fear, 
recommending action, and assisting emergency managers. The 
Administration is formulating an overall plan for emergency broadcasts 
and warning systems. There are many warning systems in place across the 
country, ranging from local phone warning capability, local sirens, 
paging systems, Internet notification, to national level-warning 
programs, including the NOAA Weather Radio All Hazards. Each of these 
systems by themselves can reach the public directly, but each has 
limitations. An integrated system employing all of these capabilities 
will be far better than any single system.
    In FY 2004, NOAA began developing a capability to reduce the time 
it takes for an emergency manager to input a hazard warning into NOAA 
Weather Radio All Hazards and reduce the possibility of transcription 
errors. This system, known as HazCollect, will reduce the amount of 
time it takes to input a message into the system--from 7 minutes to 
less than 2 minutes. This capability will allow emergency managers 
direct access to Emergency Alert System (EAS) via NOAA Weather Radio 
All Hazards, and is expected to be fully operational in FY 2006.
A Vision for the Future
    Our Vision--Reach each person in the Nation. NOAA's vision is to 
ensure access and delivery of environmental warnings, forecasts, and 
information to every person in the United States. This dissemination 
system should provide climate, water, weather and other hazard 
information the public wants, when they want it, where they want it, 
how they want it, and should ensure persons at risk receive timely 
alerts. Warnings do not become effective until those in harm's way hear 
the warning and take appropriate action. Advanced, universally 
accessible dissemination technologies are necessary to deliver 
environmental information for the protection of life and property. 
Universal access depends upon partnerships within communities to 
increase awareness and coverage.
    To achieve this vision, it is essential to use emerging 
technologies to improve communication performance measured by 
operational availability, latency, cost effectiveness, and most 
importantly, customer satisfaction. We need to make warnings and 
information available, via convenient methods and formats (e.g., 
industry standards such as GIS, XML and Real Simple Syndication (RSS)), 
to as many individuals as possible. We are working now to make this 
happen.
    The emergency information community and the government must work 
together to develop a dissemination program that is integrated and 
adaptable to change. The Common Alerting Protocol (CAP), recently 
agreed upon by the emergency management community, is one example of 
how the collaboration of the emergency management community and the 
government has increased the effectiveness of the alerting system. 
HazCollect will use the CAP format for emergency messages.
    To be most effective, emergency information must penetrate all 
technologies--radio, TV, satellite radio, satellite TV, fixed 
telephony, mobile telephony and the Internet, including voice over 
Internet provider (VOIP), in addition to system-specific receivers like 
NWR--and recognize the limitations of each. No single technology or 
system will reach all end-users. The most critical information must be 
``pushed'' to the end users.
    We must account for a broad spectrum of users, from those who want 
simple access to basic information to those who want customized access 
in order to extract information to meet their needs and, finally, those 
who want to download data in bulk.
    Current and future technologies must be leveraged to combine common 
functions into a streamlined dissemination process. Because many push 
systems share common features, current and future technology advances 
will facilitate merging the functionality of the various systems while 
fulfilling their individual requirements. A properly planned network 
will yield reliable, and cost effective services.
    The NWS depends on close working relationships with media and 
vendor groups to disseminate NWS information, especially warnings and 
forecasts, and must consider the essential role of its partners in 
dissemination. We will work more closely with industry leaders so NWS 
will be able to reach the public through such target technologies as 
satellite radio, satellite television, cable television, broadcast 
television, mobile/cellular telephony, fixed telephony (land lines), 
commercial radio, and the Internet (including VOIP).
    Flexibility must be ``built in'' to formats, standards and 
protocols used to disseminate information. NWS and the entire all-
hazards community should adopt policies to put themselves in a position 
to efficiently modify the formats and protocols used for dissemination 
as industry standards evolve and as new technologies become available. 
For example, the Internet text format known as Extensible Markup 
Language (XML) is necessary to support more sophisticated and automated 
data discovery, selection and retrieval mechanisms. XML is a simple, 
very flexible text format originally designed to meet the challenges of 
large-scale electronic publishing. XML is also playing an increasingly 
important role in the exchange of a wide variety of data on the 
Internet and elsewhere. NWS will also need to respond to the growing 
popularity of GIS formats.
    We need to improve performance to keep pace with the need for more 
data and information in various formats by maintaining adequate 
processing speed, appropriate latency, and cost effectiveness. As 
science and technology continue to advance, more data sets, and more 
information will become available. Data compression techniques will 
allow more information to be transmitted by fully exploiting the 
communications infrastructure.
    Finally, we need to investigate emerging technologies to fulfill 
dissemination requirements beyond the next few years. Technologies such 
as software-defined radio (SDR)/cognitive radio would allow the user 
more precision and flexibility in deciding which information to hear. 
Cognitive radio knows where it is, what services are available, and 
what services interest the user. WiFi (wireless fidelity) and voice 
over wireless LAN (VoWLAN) provide an expanded opportunity to reach a 
more mobile public.
Conclusion
    NOAA Weather Radio All Hazards is a proven dissemination network 
that has saved lives. We will continue to exploit our existing 
technology. However, technological advances will continue to drive how 
we can best communicate critical information to an ever more mobile and 
technology equipped public. It is our responsibility to ensure critical 
emergency information is available and can reach the people as easily 
and conveniently as possible. We will continue to work to achieve our 
vision to reach every person in our great Nation.

    Senator DeMint. Thank you.
    Mr. Chairman, would you like to make a statement?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Well, thank you very much, Mr. Chairman.
    I've come over to really put in the record the fact that, 
at my request, we've put $10 million in the budget now, for 2 
years, and there's $5 million in the bills that are pending 
now, to pursue this effort. I hope that it will--I think that 
money also includes a pilot project on using the NOAA Weather 
Radios, and they're being tried out in the offshore states, I 
believe. But I do hope that we can find a way to really bring 
about the total coordination that you've mentioned.
    And my basic question is, Is this money enough? Are we 
going to be able to get this job done with the money we've got 
now and appropriated in the past? Who wants to answer that? It 
went to Homeland Security, so why don't the Homeland Security 
people answer?
    Mr. Hoover. Thank you, Mr. Chairman.
    You are correct, in the Fiscal Year 2004 and 2005 budgets, 
the Congress appropriated $10 million in each year to the 
Department of Homeland Security. Those funds went to IAIP, the 
Information Analysis and Infrastructure Protection directorate. 
We have coordinated with IAIP over the last 2 years, the last 
two fiscal years, and, in fact, have coordinated our efforts 
with regard to the alert and warning upgrades.
    As part of the funding that you've mentioned, we have 
provided funds for the upgrade of the NOAA All-Hazards Radio 
Network. We have provided funds for providing radios, NOAA 
Weather Radios, to schools, as Mark had just previously 
testified to. And the monies that we are using is really--the 
10 million this year and last year--are funds that are for that 
IPAWS initiative, that, both within the Department, we're 
coordinated on, and, as well, across the government, that we're 
coordinated on to move forward to bring the next-generation 
alert and warning system into being.
    The Chairman. At a recent meeting I attended, I was told 
that the--really, the key to this effort is software. Are you 
developing software so there will be, really, a continuity 
throughout all systems using the same software?
    Mr. Hoover. There is some software development that's going 
on in the background, and I am not that technical to be able to 
tell you all the software pieces of it. And the key, I think, 
is--as you're alluding to--is the integration piece. The 
technology's out there. And I think today, in the next panel, 
you'll see a demonstration from--what we're doing with the 
digital emergency alert system. The technology is there. The 
challenge is the integration of all of those systems so that we 
can reach all of the American public at the right time with the 
right information.
    The Chairman. Well, I'm sorry, Mr. Chairman, I have to go 
to another meeting.
    But I don't think you quite answered my question about 
money. Is that five million going to be sufficient to complete 
this initial phase of this integration?
    Mr. Hoover. We believe that--if that's in the--if the 
Congress is going to give us $5 million, Mr. Chairman, that 
will be sufficient for us to continue to move forward with the 
IPAWS program.
    The Chairman. What is your time frame? What is the target 
date for initiating the system?
    Mr. Hoover. Mr. Chairman, we're actually in the process now 
of rolling out a second phase of the digital pilot that we're 
working with, APTS, to demonstrate a nationwide capability for 
distribution, to identify some additional technological issues 
that are out there, and then develop a nationwide 
implementation plan. And we're moving forward with that right 
now.
    The Chairman. You still haven't answered me. What--do you 
have a target date?
    Mr. Hoover. I can't give you a target date, Mr. Chairman, 
in terms of when the system actually will be in place and 
operational. I can tell you that, as we move forward--and I 
would expect, by the end of next fiscal year, we would be in a 
position to have the basics of the backbone system in place so 
that we can move forward to have a full implementation.
    The Chairman. Maybe time-sensitive about that. Do you know, 
my state has more natural disasters than any part of the United 
States? Hawaii comes second. Now, the two of us from the 
Pacific are very concerned about this, and we think there ought 
to be a date when people can understand this system will be in 
place.
    Mr. Hoover. Well----
    The Chairman. Now, when will you be able to answer the 
question of, When will the system be in place and operable?
    Mr. Hoover. Well, Mr. Chairman, it's important to recognize 
that there already is a system in place to warn the public for 
emergencies, and that is the Emergency Alert System, and it is 
used every day. What we're doing now is taking that one step 
further and implementing--using new digital technologies to be 
able to reach out to more people, more of the time.
    The Chairman. That relies on----
    Mr. Hoover. So, we do have a system in place.
    The Chairman.--just on radio, doesn't it?
    Mr. Hoover. Yes, sir. I mean, the foundation of the EAS 
system is based on the broadcasters and the broadcasters' 
participation.
    The Chairman. That was a wonderful system for its time, but 
I don't know many people that carry around radios in their 
pocket any longer. They're carrying cell phones, they've 
carrying BlackBerrys, they're carrying all sorts of devices for 
communication, and we need to get in touch with the future on 
this system. When is that integration date?
    Mr. Hoover. Mr. Chairman, I can't give you an exact date. I 
can tell you that by the end of next year we will be well along 
the way to fully deploying an Integrated Public Alert and 
Warning System.
    The Chairman. OK. Then, Mr. Chairman, you can tune in the 
same station next year, I'll ask you the same question next 
year.
    Mr. Hoover. Thank you, sir.
    The Chairman. Thank you very much.
    Senator DeMint. Thank you, Mr. Chairman.
    As you probably understand, we might need to come up with a 
date at----
    Mr. Hoover. Yes, sir.
    Senator DeMint.--this point.
    [Laughter.]
    Senator DeMint. And, Mr. Hoover, my respect----
    Mr. Hoover. Got that loud and clear, Mr. Chairman.
    [Laughter.]
    Senator DeMint. Good, I'm glad we--we're understanding the 
same message here.
    Mr. Hoover, my respect for you has gone way up. I've never 
heard anyone in a Federal agency say they have enough money, so 
I appreciate----
    [Laughter.]
    Senator DeMint.--us starting that way.
    Let me start with a couple of questions, and then I'll ask 
the Ranking Member to help me here.
    And I'll start with you, Mr. Hoover. You mentioned IPAW. 
And I know it's the process of identifying the technical 
challenges to what we want to accomplish. What are some of 
those technical challenges that we're facing? And how can we 
address them?
    Mr. Hoover. Thank you for that, Mr. Chairman.
    It's important to realize that, as we've tried to put this 
system in place, we've focused, really, on the method of 
distribution, and we haven't looked at what the message is 
and--because we want to make sure that we have those 
technological challenges, we understand what they are, so that 
as we transmit an emergency message to a cell phone provider, 
for example, they don't have to do anything to the message, and 
it can go right straight through their system. So, one of the 
technological challenges that we're working with--and I would 
say there are two of them--the first one is what I would call 
that middleware. There needs to be some type of a software 
application that will allow us to send a message to, for 
example, the cell phone carriers or the satellite radio 
providers, some software that will allow the message to go 
right from an authorized, authenticated originator of a message 
into their system without the provider having to manipulate the 
message and then go out to their service customers. So, that's 
the first challenge, is trying to develop that, sort of, 
middleware piece, and we have----
    Senator DeMint. Are you working with the private companies 
on doing--my concern is, I think, too often in government we'll 
develop our own ideas of what should be done, and then tell the 
carriers, ``Here, use this.''
    Mr. Hoover. Right.
    Senator DeMint. And they may have to spend incredible 
amounts of money to adapt to what we've developed. And it would 
seem a much better approach that if we find out from them how 
they need this information, so that they can pass it straight 
through--and you're telling me, that is----
    Mr. Hoover. We're doing that.
    Senator DeMint.--your approach.
    Mr. Hoover. And, actually, we are doing that, and we're 
doing that with all the participants in our digital pilot that 
we're doing here with the--in the national capital region, and 
we're getting ready to move out into phase two.
    All of the folks that are at the table with us, through 
voluntary participation--the cell phone folks, the satellite 
radio folks, commercial broadcasters, all the different people 
involved, even the technological--the technology development 
folks--are involved with us, and we have put together a group 
to address those technological issues that really are going to 
make the system work.
    Senator DeMint. So, your perspective may be that the 
Federal agencies, working together, may actually create 
different methods of distribution in order to work with all of 
your customers, which, in effect, are the various carriers, 
cell phone, whatever, that----
    Mr. Hoover. Yes, sir.
    Senator DeMint.--you're going to try to adapt to them.
    Mr. Hoover. Yes, sir. And the key to it is that Common 
Alerting Protocol that we've adopted and we've been using in 
our pilot programs, so that the message is in a digital format. 
It's a packet of ones and zeros, basically. It doesn't matter 
what the message is. If we can keep it in a Common Alerting 
Protocol format, any type of a receiver device that's in the 
digital age should be able to take that message and send it 
out.
    Senator DeMint. Just--and this question could be to any of 
you. Going through the process of setting this whole system up 
is, obviously, our responsibility. But a part of that is trying 
to understand how people will respond. And, in many cases, we 
may spend a lot of time and money doing something where people 
will not necessarily respond in a constructive way. But is that 
part of this consideration? And I know we've maybe observed, 
through weather alerts or whatever, how many people actually 
will do anything about it. Are we into the behavior of our 
final customer, here, the citizen, and how they might behave 
when they get an alert?
    Mr. Hoover. Sir, let me start with that, and then maybe 
Mark can finish up, because I know they've done a lot of work 
in the social-behavior piece.
    As I mentioned, our focus has been on the technology, at 
the moment, and we haven't so much focused on the message. But 
that will be the next piece of it, as we move forward, is to 
figure out, OK, what are those messages that we want to send so 
that we do give people the right information that can save 
lives? And I know that NOAA has done a significant amount of 
research in social behavior in that area.
    Mr. Paese. Yes, thank you, Reynold.
    Yes, as Reynold mentioned, we believe that setting the 
architecture and the protocols and the infrastructure, I think, 
are our first stage to get the architecture set up, and 
learning from the lessons that NOAA has and with the behavioral 
scientists that we've spoken to on--when a message goes out, 
what actions to take and what message to provide them. We're 
going to use that as a basis, then, to continue on.
    Senator DeMint. Senator Nelson?
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Well, as you have seen, Chairman Stevens is quite subtle.
    [Laughter.]
    Senator Ben Nelson. I want to examine your approach to 
dealing with how you bring together architecture and 
differentiation of message in the ordinary course of things, 
where you have to start out with the ability to notify and then 
you have to decide what it is that you want to say and, of 
course, ultimately, the audience for the message. But this is 
probably very time sensitive because of the terrorist threats 
that are represented today.
    Therefore, I think people will feel more secure if there's 
notification. They'd feel most secure if they don't think 
there's going to be a terrorist activity. On the other hand, I 
think people are wise enough to know that zero tolerance may be 
our goal, but it's hard to achieve. So, the second best is to 
have some degree of notification, because of what that would 
represent in their preparedness.
    As you're doing this, with the technology, the hardware, 
and the software, are you going to be in a position, 
ultimately, to where the use of the technology would permit you 
to alert people, through the BlackBerry or through the cell 
phone, of a tornado in a certain area? Also, I assume that 
you're probably looking at area codes. There may be some other 
technology that you use that would identify it. Are you going 
to be able, at some point, to be that specific in your alerting 
system? As you choose.
    Mr. Hoover. Yes, Senator. In fact, one of the parts of the 
IPAWS is a partnership we're doing with NOAA for GTAS, the Geo-
Targeted Alert and Warning System, where we'll actually be able 
to use the reverse-911 database to provide targeted warnings to 
precise groups of people, based on the 911 database and other 
systems that NOAA has in place, to give them warning, to say, 
``There's a tornado coming,'' and, ``Head in a different 
direction,'' or some specific message and instruction. So, we 
are doing that. And I think in the next panel you'll see a 
demonstration where we're able to use an alert and warning 
message and generate it through a number of different devices, 
including the BlackBerry and other devices that are out there.
    Senator Ben Nelson. Mr. Paese?
    Mr. Paese. Yes, if I may. Yes, we believe that is the wave 
of the future. Obviously, FIPS codes, the way we alert and warn 
people today by county and--it can be broken up into a ninth of 
a county. But GIS, we believe, is the future. If a person in a 
location can get a message, a signal, if you will, on their 
BlackBerry, on their cell phone, on their device, that, we 
believe, is the way to geo-target individuals. And the 
technology is there today. We feel that integrating that 
technology into the front end of the message to get it to those 
individuals is the key, and we feel that is the future.
    Senator Ben Nelson. Well, as you proceed, I think the 
question is, how quickly can you achieve that, and what sort of 
timeline can you put in place so that your progress can be 
measured, not only by yourselves, but by others from the 
outside? I think that's the frustration you're sensing. When we 
don't know whether you're 50 percent toward your objective, or 
35, or 5 percent toward it, it's difficult for us to provide 
the kind of oversight that we think we need to provide.
    In that regard, because there's more to this, at times, 
than the technology and the differentiation, Mr. Moran, how do 
you expect the FCC to proceed in the rulemaking that is 
probably going to be necessary? Because we're talking about 
some of the basic nuts and bolts, as well as the technology and 
the program itself.
    Mr. Moran. Yes, Senator.
    We have--last summer, we opened a proceeding on improving 
the alert and warning systems, and we got an extensive--we have 
an extensive written record from that proceeding. We asked a 
number of questions, many of them you've actually--you and 
the--Chairman DeMint have touched on. We've asked many of those 
questions in our proceeding. We got an--we have an extensive 
record, and we've been in--recently, we've been in touch--we've 
had a series of meetings with all the major media players to 
try to figure out how we can improve the EAS system and what 
additional augmentation to the processes, to the alert and 
warning systems, may be necessary.
    So, we have quite an extensive record. We expect to be able 
to deliver, perhaps, an initial order that would make some 
initial improvements to the EAS system in the next several 
months.
    Senator Ben Nelson. Could you narrow that down just a 
little bit?
    Mr. Moran. We expect to be able to bring something for 
Commission decision in the next several months on some basic 
issues of participation in the EAS program by digital 
broadcasters, by satellite, direct-to-home TV and radio 
broadcasters--or service providers.
    Our approach is to set some basic goals and obligations 
that would--missions, goals that we would try to meet, and to 
allow some flexibility so that the cost to the providers would 
not be that much to implement what is desired.
    So, we do intend to have some flexibility to make sure that 
the basic goal, that all American citizens would have access to 
an excellent emergency warning system--that's the goal. We 
would allow some flexibility, if that's what it takes to make 
it happen, with the infrastructure that's out there.
    Senator Ben Nelson. A short question to follow up on that 
is, will the rulemaking proceed at an appropriate pace to make 
sure that we don't get to the end of the line with the 
technology all ready to go and we've got several months waiting 
for the rulemaking to be complete?
    Mr. Hoover. Maybe I can take that one, Senator. We--part 
and parcel with the FCC's rulemaking initiative, as NOAA had 
pointed out--Mark mentioned in his testimony--we co-chair a 
Task Force on Effective Warning that has all the major players 
in the Federal Government involved in alert and warning. Our 
objective there is to develop a national policy that will lay 
out the architecture for a national alert and warning system. 
And we hope that that policy will fit part and parcel with the 
FCC's rulemaking. And I think we're working to try to get that 
done, as a----
    Senator Ben Nelson. So, we could----
    Mr. Hoover.--on a very timely basis.
    Senator Ben Nelson.--we could reach closure on the actual 
system and the authority that is there, any authority that's 
required, and not be held up by even pending legislation that 
might become necessary.
    Mr. Hoover. That's correct. We're trying to marry up a 
national policy for alert and warning that we think will 
include--and we're pretty confident will include--this IPAWS 
solution that we're talking about today, and marry that up with 
the rulemaking so that the policy will help the rulemaking, as 
opposed to the rulemaking driving the policy or being hindered 
by anything else.
    Senator Ben Nelson. Well, I think that's excellent. And it 
needs to work that way, or I don't think you'll want to attend 
the next hearing when the Chairman is here.
    [Laughter.]
    Senator Ben Nelson. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Hoover. Thank you, sir.
    Senator DeMint. I'm, kind of, sitting here wondering why 
we're working on legislation if you're doing the policy and 
rulemaking here. So, you're initiating this without 
legislation. Is----
    Mr. Hoover. Yes, sir. One of the things that--we've started 
this about a year and a half, almost 2 years, ago.
    Senator DeMint. Yes.
    Mr. Hoover. And we started with this IPAWS solution, when 
APTS, Public Television folks, came to us and said, ``We want 
to be a partner with Homeland Security in providing alert and 
warning messaging.'' At the same time, the FCC had their Media 
Security and Reliability Council that came and made 
recommendations on improvements to the EAS. At the same time 
that that hit, the Partnership for Public Warning produced a 
report that had a number of recommendations in there. We think 
we're implementing most of those recommendations. And we 
started moving down the road to developing this IPAWS solution, 
and what we realized is--between us and NOAA, that we need the 
policy that will show us what the architecture is, at the end 
of the day, because we can put all these things together--the 
technology is there; it's that integration piece. And so, the 
White House stood up this Task Force on Effective Warning, just 
in the last 2 or 3 months, and we're on a pretty fast track to 
try to deliver a policy so that it lays out what does that end 
state look like for a next-generation alert and warning system. 
And we're working very closely with the FCC so that all of 
those things happen together.
    Senator DeMint. So, if we don't develop legislative 
guidelines, you're going to do it anyway, right?
    Mr. Hoover. Yes, sir.
    Senator DeMint. OK. I guess that's a good challenge to have 
here.
    [Laughter.]
    Senator DeMint. Mr. Moran, let me ask you a question, 
because I'm very concerned about us developing something that--
issuing mandates to the private market that could cause 
considerable cost and maybe not necessarily take advantage of 
evolving technologies. You mentioned some flexibility. You 
know, my hope would be that--and I would like your opinion on 
this; maybe I should state it that way--is, if we make the 
messaging, the distribution available in a lot of different 
formats that can be accepted by a vast array of carriers, is 
there any reason that we cannot make the acceptance of this 
voluntary by the carriers?
    Mr. Moran. In our proceeding, we've actually asked the 
question--currently the delivery of the state and local message 
is voluntary under our current rules. We've asked the question 
whether it should remain voluntary----
    Senator DeMint. So, are you actually considering issuing a 
mandate that all--everyone would have to take whatever----
    Mr. Moran. Well, we've----
    Senator DeMint.--you send out?
    Mr. Moran.--asked the question, and we've got quite an 
extensive record on that. There are some parties who believe it 
should be mandatory, on the record, and there are others who 
believe that voluntary is fine. Some have argued that the 
voluntary aspect has worked very well over the years and it 
should be allowed to continue.
    All I can tell you is, we have parties on both sides of 
that issue in this proceeding, and we are looking at that and 
studying that, and it would have to be brought to the 
Commission for a decision on that.
    Senator DeMint. Well, if my opinion matters, I happen to 
believe, at this point, that it's likely, if it's voluntary 
with full disclosure--in other words, if I get a cell phone and 
it has disclosure that it does not include the warning, that 
our carriers would very quickly create a competitive advantage 
for themselves by doing it better and better, and we would have 
a best-practices system that could allow the system to evolve 
and improve, other than stick to a standard that we create here 
this time. But that's just my opinion at this point.
    And one other--just a quick question. I assume hard-line 
phones are being considered as part of this, as a message, 
because--since a lot of people are at work. Right? They're in--
--
    Mr. Hoover. Yes, sir. And that's part of that whole--the 
GTAS, the Geo-Targeted Alert and Warning, can use the land-line 
phone system.
    Senator DeMint. Senator Nelson, any additional questions?
    Senator Ben Nelson. Would the differentiation of warnings 
and message and the audience that would receive the warnings--
in narrowing that down, what would you encounter, in terms of 
difficulties, or will that be coming forth in the second panel, 
where they do a demonstration? Will there be some sort of 
regulatory problem? Is there a privacy issue here? What would 
be involved?
    Mr. Hoover. I guess I'm not quite clear on what the 
question is.
    Senator Ben Nelson. Well, would I have to sign and say that 
I want to be notified, or will it be an automatic benefit or 
service included within the technology that I happen to have?
    Mr. Hoover. I think one of the pieces of the IPAWS that 
we're doing, and I mentioned in my remarks, is that we're 
looking at an AMBER-Alert-like portal, and we're trying to 
build on the success that the Department of Justice has had in 
disseminating alert and warning messages using their AMBER 
Alert system, so that in the--at the present time, what we're 
considering is an opt-in situation, so that you would go to a 
website that would allow you to opt into the types of messages 
that you would like--alert and warning messages you would like 
to receive, and that the only real mandatory message, at this 
point, as we move down the road, would be the carriage of a 
Presidential-level national emergency message that you're going 
to get regardless of if you sign up for it or not. We just 
believe that if you require every message to be carried, it's 
going to go the way of the car alarm and people aren't going to 
pay attention to the ones that really are important to them, 
but folks will go online--and you can go on to this website, to 
the portal, and say, ``I want to be notified of earthquakes and 
tsunamis and tornadoes,'' whatever those things might be, 
terrorist attack, and you would get those appropriate messages.
    Senator Ben Nelson. If you get this perfected--and I hope 
that you do--will you promise me that you'll take over the 
warning system as to when we need to evacuate the Capitol?
    [Laughter.]
    Senator Ben Nelson. Get that at some level that we can 
appreciate it?
    Senator DeMint. Yes, let's just hope we don't have to 
evacuate, this week, right?
    Senator Ben Nelson. That's right. Will there be an extra 
cost to the consumer for the messages? Will I have to pay for 
my equipment?
    Mr. Hoover. You know, Senator, I can't answer that 
question. Perhaps the private-sector folks in the next panel 
may be able to better address the costs that may be involved.
    Senator Ben Nelson. OK.
    Thank you, Mr. Chairman. Thank you all.
    Senator DeMint. It's been very productive. I appreciate it.
    Let's switch out panels. We go from the first to the 
second. I thank all of you, gentlemen.
    [Pause.]
    Senator DeMint. Thank you folks for being here. This second 
panel is composed of Mr. Richard Taylor. He's Chair of COMCARE 
Alliance. Mr. Taylor will be providing a perspective of the 
emergency-management community on what tools they need in a 
public-alert system.
    Joining him is Mr. Christopher E. Guttman-McCabe, Assistant 
Vice President of Regulatory Policy and Homeland Security at 
CTIA.
    Senator DeMint. Mr. Guttman-McCabe will be discussing the 
cellular industry's participation in recent emergency-alert 
projects and discuss the industry's perspective on their 
participation in the next-generation emergency-alert system.
    And finally appearing is Mr. John Lawson, of the 
Association of Public Television Stations. I understand Mr. 
Lawson is going to run through a demonstration of the digital 
emergency alert system.
    I'll ask Mr. Lawson to begin the demonstration and provide 
a short summary of his testimony.
    So, Mr. Lawson, if you can begin?

  STATEMENT OF JOHN M. LAWSON, PRESIDENT/CEO, ASSOCIATION OF 
                   PUBLIC TELEVISION STATIONS

    Mr. Lawson. Good morning, Mr. Chairman, Ranking Member 
Nelson. Thanks for inviting me to testify today on behalf of 
our members, which are the local public stations across the 
country. I'm here to address the development of an all-hazards 
multiple-devices warning system and the dual-use contribution 
that public digital television can make.
    Digital television, DTV, is really a very powerful wireless 
data distribution platform, in addition to HDTV and/or multiple 
programming streams, where we now have just one. DTV also can 
send very high-end data to a number of devices. When we 
broadcast data, also called datacasting, information is 
embedded in the over-the-air digital signal. This data can be 
received on PCs and laptops equipped with commercial off-the-
shelf DTV tuner cards. This little silver box on the front of 
this table here is an example of that. This means very low-cost 
access for first-responders, as well as schools, hospitals, and 
other institutions. Datacasting uses only a fraction of the 
digital spectrum, and it can run simultaneously with HDTV or 
whatever the station that's broadcasting to viewers. If needed, 
the data can be encrypted so that only certain computers--for 
example, in police departments--can access it.
    Datacasting is completely scalable and is bottleneck-free. 
Just as with broadcasting to TV sets, the information can be 
received by one viewer or one million viewers without fear of 
overload. Typical DTV signals can reach 50 to 60 miles from a 
single transmitter.
    As you heard from Reynold Hoover, APTS, last fall, entered 
into a cooperative agreement with FEMA at DHS to launch a pilot 
project in the national capital region. This pilot is serving 
as the basis for the new Digital Emergency Alert System, or 
DEAS. APTS is joined by PBS and public stations WETA, here, 
Maryland Public Television, the New Jersey Network, WHRO, in 
Norfolk, and KAKM, in Anchorage, as well as commercial media 
and wireless partners.
    Our pilot is demonstrated graphically on the flowchart at 
the side of the room, and I'd be glad to take you through that 
during Q&A.
    We're now going to demonstrate for you the capabilities of 
our DEAS pilot. At this moment, an official at FEMA is sending 
a test alert to the PBS Satellite Operations Center in 
Springfield. PBS is uplinking the alert, and it's being 
received by WETA. Instantaneously, without anyone at the 
station touching it, WETA DTV retransmits the alert over the 
air within its digital signal. DHS has the ability to provide 
text, as well as audio and video. In this case, we're 
transmitting all three.
    We can also--once a Presidential message from FEMA comes 
through, however, it takes priority. All of this comes over the 
air to a computer here via the small antenna on the table in 
front of the panel. This is off-air. This small v-shaped 
antenna here, a Radio Shack antenna, is actually receiving the 
WETA signal off-air. It's connected to a laptop computer over 
there, which is projecting the alert on the screen.
    So, we can send video, as is opening up right now, which 
shows you the flexibility of this system. We can send the text 
messages. We can send the audio alerts. This is live from FEMA.
    This is coming over XM satellite radio. And the cell phones 
are ringing, because, embedded in the alert, is data that goes 
to the headends of the cell phone companies, and they can 
retransmit that as a text message.
    So, as Reynold described this morning, we are feeding these 
alerts to other radio and TV stations. We're feeding it to 
cable headends and cell phone and pager services. The cell 
phones are ringing because of the alert.
    Along with the alerts, we can datacast text and animation 
files over WETA. One of those files is something you all, in 
the Senate, are quite familiar with, a quick-card evacuation 
information sheet. You can see on the screen, the file has just 
opened. This was sent as a file over the air, again, to PCs. A 
map you're familiar with is also being displayed. This 
information also can be sent through wireless through your 
BlackBerrys, all in a matter of seconds.
    Datacasting can send just about any type of file. In the 
next example, we developed a simple animation, based on a dirty 
bomb going off at Metro Center. It forecasts the movement of 
the radioactive plume and indicates the traffic patterns that 
should be followed as part of the evacuation plan.
    We can also datacast full motion video and audio of the 
President addressing the Nation, if necessary, or a mayor 
addressing a city.
    The best practices developed during the DEAS pilot also are 
serving as a model for local jurisdictions. Stations around the 
country are entering partnerships with public safety and other 
agencies from areas around nuclear power, chemical plants, and 
the Las Vegas casinos. Alert systems are being tested. Stations 
also provide training, such as the port-security video we're 
seeing again.
    As we work with FEMA to plan the national rollout of the 
DEAS, our members, the local public television stations, stand 
ready to play an integral part at the national, regional, 
state, and local levels.
    I'm happy to answer any questions you may have.
    [The prepared statement of Mr. Lawson follows:]

         Prepared Statement of John M. Lawson, President/CEO, 
               Association of Public Television Stations
    Mr. Chairman, Ranking Member Nelson and Members of the 
Subcommittee:
    It is my privilege to come before you today to discuss how Public 
Television's digital infrastructure can play a role--a dual-use role--
in developing a new, robust and efficient digital emergency alert and 
warning system. No doubt this month's bombings in London continue to 
reverberate in the minds of the Members of this Subcommittee. To me, it 
is also a vivid reminder that our Nation's current Emergency Alert 
System is built on an aging analog infrastructure and must be upgraded.
    But I am here to bring you good news. That state of affairs is 
beginning to change, and I'm pleased to report that Public Television, 
working directly with the Department of Homeland Security, is playing 
an integral role in the development of an all-devices, all-hazards, 
digitally-based emergency alert and warning system.
Digital Emergency Alert System: DEAS
    The next generation of a national emergency alert system is called 
the Digital Emergency Alert System, or DEAS. It will be based on Public 
Television's digital transmission infrastructure. Like the current 
system, the DEAS is designed to ensure that the head of our national 
government--the President or his successor--can quickly communicate to 
the American public during an emergency. The current system--which, by 
the way, was never utilized during 9/11--is limited to two basic 
reception devices: radios and televisions. And yet today, Americans 
have become fluent in an impressive array of other--often, more 
portable--devices, including cell phones, personal computers, 
Blackberries and other PDAs. Under the DEAS, the President could 
potentially reach almost all Americans quickly with an important 
message delivered to any one or all of these devices.
    It is also important to note that the current Emergency Alert 
System was conceived during the cold war era to provide warning for 
threats that were national in scope--namely, a nuclear attack. Today's 
most potent threat, acts of terrorism, are by their nature more local 
or regional in scope, as the residents of New York, Washington, Madrid 
and London can attest. That is why the new DEAS will provide a backbone 
that can be interconnected to deliver alert and warning at the local, 
regional and national levels.
Role for Public Television
    Public Television is a mission-driven institution. When our system 
was faced with the prospect of undertaking a daunting conversion from 
an analog to digital transmission platform, we naturally began to 
explore the many ways that this exciting new digital technology could 
be used to benefit the American people. With the emergence of a digital 
broadcasting application called datacasting, which I will discuss 
further, we quickly grasped that local digital public television 
stations could play a role in enhancing public safety. At first the 
idea focused on natural disasters such as tornadoes. And then came 9/
11.
    The other critical feature of the Public Television system is our 
penetration: we reach nearly 99 percent of American households with 
analog service and, soon, with digital. Indeed, our system's breadth is 
impressive, but so is our depth. We are deeply rooted in our 
communities, typically among the most trusted local institutions and 
ones that have forged strong linkages to other community institutions 
and populations.
    In short, Public Television is building out a fully integrated 
digital infrastructure which, once complete, will reach nearly every 
American community. The DEAS is a very cost-effective, dual-use 
application that builds on this infrastructure.
What is Datacasting?
    In order to appreciate the capabilities of a DEAS, it is necessary 
to understand the central application involved--namely, datacasting. 
Digital television, or DTV, is most closely associated with high-
definition television (HDTV). But DTV is really a powerful, wireless 
data transmission system. It is also very flexible. From a single 
transmitter, a broadcaster can send any mix of HDTV, multiple standard-
definition channels, or high-end data to any DTV reception device 
within 50-60 miles.
    One of these applications, called datacasting, is a one-way 
broadcast transmission of Internet Protocol (IP) information. The data 
being transmitted can take the form of text, video, audio, and 
graphics. Datacasting uses only a portion of the broadcast spectrum. 
Moreover, datacasting can deliver large amounts of data embedded in the 
broadcast signal at a rate of up to 19.4 megabits per second (MBPS)--
the equivalent of up to 13 T-1 lines.
    Datacasts are encoded within the digital television signal and then 
decoded by an inexpensive receiver that is easily hooked up to a 
personal computer, laptop or computer network. Reception can be 
achieved through a small portable antenna that sits on top of the PC 
(or laptop in the field), or users can receive the signal through a 
conventional rooftop TV antenna or cable. The signal can also be 
instantly retransmitted over wireless and other networks.
Advantages of Datacasting
    Datacasting boasts several key attributes:

  <bullet> Datacasting is highly scalable and congestion-free. It 
        avoids the communications bottlenecks we saw in New York and 
        Washington on 9/11. Because it is a broadcast medium, it takes 
        no more bandwidth to reach millions of end-users simultaneously 
        than it does a single end-user.

  <bullet> Datacasting is secure. Through additional technology, data 
        can be encrypted, rendering it far less vulnerable to hackers 
        than Internet-based communication.

  <bullet> Datacasting is flexible. It can be ``addressed'' through 
        conditional access to a select group of end-users (such as a 
        Federal agency, a local fire department or a school district) 
        or made available to the widest possible audience--anyone with 
        a digital antenna and receiver.

    Included at the end of this testimony are several examples of 
current and ongoing Public Television datacasting projects, ranging 
from educational partnerships to robust public safety and training 
efforts. I highly recommend that the Subcommittee review these examples 
in order to appreciate the wide range of services being offered and 
explored by Public Television stations and their local and regional 
partners.
Department of Homeland Security-APTS Pilot Program
    At this time, however, I would like to focus the Subcommittee's 
attention on one particularly important project that is being pursued 
jointly between the Department of Homeland Security and APTS.
    In October, 2004, the Department of Homeland Security's Federal 
Emergency Management Agency (FEMA) signed a cooperative agreement with 
APTS to conduct a Digital Emergency Alert System--National Capital 
Region Pilot Project (DEAS-NCR). The pilot was launched to demonstrate 
how public television's digital infrastructure could be used to support 
the distribution of Presidential messages to the public and of digital 
all-hazards Emergency Alert System (EAS) messages to TVs, radios, 
personal computers, telephones and wireless networks.
    Public broadcasting participants in the pilot include APTS, the 
Public Broadcasting Service (PBS), WETA-TV and FM, Maryland Public 
Television, WHRO (Norfolk, VA), KAKM (Anchorage, AK) and the New Jersey 
Network. These Public Television entities were joined by WTOP-AM radio, 
WRC-TV (both in Washington, D.C.), Comcast Cable, the National Cable & 
Telecommunications Association (NCTA) and XM Satellite Radio. 
Participating telecommunications industry organizations include 
Cingular Wireless, Nextel, T-Mobile, the Cellular Telecommunications 
and Internet Association (CTIA) and USA Mobility, among others.
    Phase I of this pilot project focused primarily on testing whether 
emergency alert and warning messages could be successfully transmitted 
to end-users in a workable format--known as the Common Alerting 
Protocol (CAP) format. The Pilot was formulated around the concept of 
real-time activation by FEMA of simulated emergency alert and warning 
messages into the DTV network of PBS and WETA, who redistribute the 
alert messaging to other participants in the pilot.
    I am pleased to say that Phase I of the pilot project was a 
resounding success. We were able to demonstrate that this 
infrastructure works and works well.
Phase II of the DEAS-NCR Pilot
    Based on the success of the first phase of the DEAS-NCR Pilot, the 
Department of Homeland Security has extended the pilot by an additional 
6 months. The extended pilot program will lay the foundation for the 
national roll-out of a digitally-based Federal public safety alert and 
warning system.
    Phase II has three major components.

  <bullet> First, the Pilot will spend additional time on testing and 
        evaluation, as well as provide an opportunity to further 
        develop the components of the pilot system. Additional testing 
        sites beyond those in Phase I of the pilot, including one or 
        more state emergency operations centers (EOCs) and several 
        additional public broadcast stations outside the National 
        Capitol Region, are being incorporated in Phase II.

  <bullet> Second, APTS will work in coordination with other alert and 
        warning pilots and vendors, such as the one that DHS is 
        developing to provide satellite connectivity to the Nation's 
        current Primary Entry Point (PEP) stations. These other pilots 
        are also consistent with DHS's goals for an Integrated Public 
        Alert and Warning System (IPAWS) framework. The goal here is to 
        ensure that a DEAS can work with, and be complementary to, 
        other aspects of an improved national alert and warning system.

  <bullet> Third is the development of a DEAS National Deployment Plan 
        as well as a final DEAS Pilot Report for Congress. The DEAS 
        National Deployment Plan will include construction and timeline 
        estimates, technical risk determinations and other technical 
        implementation options.

Next Steps
    We at APTS are gratified to play a role in this effort, and our 
member stations are fully committed as well. We could not be more 
pleased with the way the DEAS-NCR Pilot has progressed and how that 
might translate to a fully developed, robust national alert and warning 
system. I would also like to commend Reynold Hoover and his colleagues 
at FEMA for their foresight in recognizing the dual-use features of 
DTV, and for forging a very productive working relationship with us.
    Going forward, there are two elements that I have not yet mentioned 
that I believe are critical to the ultimate viability of the DEAS.
Satellite Interconnection
    First is the replacement of Public Television's satellite 
interconnection system. As you are probably aware, national programming 
is currently distributed from PBS to the more than 350 local public 
television stations via a satellite interconnection system. That system 
is wearing out and is scheduled to go dark in October 2006--when the 
current leases on satellite transponders expire. Congress has funded 
two of four installments for a replacement, Next Generation 
Interconnection System over the past two appropriations cycles. 
Continued appropriations in FY 2006 are extremely important to secure 
long-term leases on new satellite capacity as well as enhanced 
terrestrial distribution capabilities. This is relevant to the subject 
of today's hearing, because the same infrastructure that ensures 
distribution of national programming also forms the backbone for 
distribution of emergency alert and warning messages under DEAS.
Local Origination
    At the local level, it is also important that we plan for and 
provide resources for local origination equipment. The purpose of local 
origination is to allow local communities to take advantage of the 
Federal DEAS whenever emergencies of a local or regional nature occur. 
If, for example, a tsunami were to develop in the northern Pacific 
Ocean, headed toward Alaska and the Pacific Northwest, it would be 
essential that local stations have the ability to augment and enhance 
the level of communication about the tsunami to the affected citizenry.
    Similarly, any number of communities that lie within the range of 
hurricanes--from Gulf States to the Atlantic seaboard--would benefit 
from a fully integrated local and national warning system that would 
enhance the NOAA weather service. Datacasting can be used not only to 
provide initial warning but also to distribute detailed information 
such as evacuation routes, instructions for sheltering in place and 
other safety tips. Information is crucial in any crisis, whether a 
chemical spill at an industrial site, an incident at a nuclear power 
plant, or other man-made or natural disasters.
    The ability to create and distribute local and regional messages 
and data packets is vital to a fully integrated emergency alert and 
warning system. It is in the best interest of the American people, who 
expect local and national coordination in times of crisis. Fortunately, 
the capability necessary to accomplish this is within our grasp.
Conclusion
    Public Television is gratified that we can play a role in helping 
to shape our Nation's next generation emergency alert and warning 
system, and most importantly to deliver that capability. It is a 
natural extension of our public service mission. We believe that one 
day in the near future Public Digital Television will play a crucial 
role during a crisis that will save lives and calm fears.
    Thank you for giving me the opportunity to testify today.

    Senator DeMint. Just a quick question and I want to get to 
the other panelists. As far as our BlackBerrys are concerned, 
would our server have to coordinate with you for it to come 
through my BlackBerry, or could that just be automatic?
    Mr. Lawson. By arrangement with the service provider--and I 
don't know who you use, in the Senate--it would be passed 
through automatically.
    Senator DeMint. OK.
    Mr. Lawson. Your server would not--as I understand it; and 
I don't understand the Senate firewalls--but, generally 
speaking, no one's touching this data. If, by prior 
arrangement, your service provider has agreed to handle this 
messaging, no one touches it; it goes right through.
    Senator DeMint. So, the servers of these BlackBerrys, 
regardless of the Senate or what--does not--they don't 
necessarily have to have a lot of new technology, or whatever, 
to do it?
    Mr. Lawson. This is why--the Common Alerting Protocol and 
the Integrated--the IPAWS that the witnesses testified about 
this morning, make sure that it passes through. There is 
nothing extra on the receive end, in terms of the text 
messaging, that would be necessary.
    Senator DeMint. I'll save my other questions. But, since 
I've spoken, Senator Nelson, if you wanted to say anything----
    Senator Ben Nelson. Now, for example, a cell phone was 
ringing. Is that technology aimed at some sort of GPS or by 
area code? What if I have an area code from Nebraska on my cell 
phone, but I'm located here? Does it contact me? What may be 
important here, in terms of a localized disaster, might not be 
important out there, vice versa.
    Mr. Lawson. I know that FEMA and NOAA are working on the 
geographical targeting. Our pilot doesn't do that. But I can 
tell you that it does--this system fully supports conditional 
access. The signal goes out to everyone, but only certain 
devices, such as Senate BlackBerrys, might have the 
authorization to receive it. It might be card, it might a code, 
it might be a thumbprint. So, we can segment that way. Also, 
although we're sending information, this test data, over the 
PBS satellite, so anything public state or state network, like 
Nebraska ETV in the Nation, can take it. You automatically have 
geographic localization of that kind, at least on the state and 
national--regional level.
    Senator Ben Nelson. OK, thank you.
    Senator DeMint. Mr. Guttman-McCabe?

            STATEMENT OF CHRISTOPHER GUTTMAN-McCABE,

        ASSISTANT VICE PRESIDENT, HOMELAND SECURITY AND

 REGULATORY POLICY, CTIA--THE WIRELESS ASSOCIATION<SUP>TM</SUP>

    Mr. Guttman-McCabe. Thank you.
    Good morning, Chairman DeMint and Senator Nelson. I am 
Christopher Guttman-McCabe, Assistant Vice President for 
Homeland Security and Regulatory Policy at CTIA--The Wireless 
Association.<SUP>TM</SUP>
    I am privileged to appear before you today to discuss the 
wireless industry's efforts regarding an all-hazards network.
    The wireless industry recognizes the importance of this 
effort. CTIA and the industry have dedicated significant 
resources to address this issue. We have coordinated our 
efforts through the Department of Homeland Security and FEMA. 
The industry also recently launched a wireless AMBER Alert 
project that not only will help to protect our Nation's 
children, but also will provide a useful template as the 
industry moves forward with an emergency alert service.
    The wireless industry, like many other high-tech 
industries, is in a process of continual change and renewal. 
The industry has invested billions of dollars in its networks, 
and consumers have invested billions of dollars in their 
handsets, their wireless PDAs, and their data cards. 
Manufacturers and service providers unveil new capabilities 
almost daily. New technologies and services are likely to 
extend both the reach and the capacity of wireless. A sensible 
emergency alerting policy must take into account both the 
massive investment in place today and investment that defines 
the capabilities that can be used this year, as well as next, 
and the technological developments that propel the industry in 
the long run.
    CTIA, working with the industry, has initiated a two-part 
approach to the emergency alert issue. The goal is to balance 
the industry's existing capabilities with the perceived 
requirements of emergency alert service, at the same time 
recognizing that the industry is evolving. Unlike the existing 
emergency alert service which operates on a broadcast network 
designed to transmit messages from one point to multiple 
points, the existing wireless was designed to be point-to-
point, one customer to another customer.
    Accordingly, the industry is partnering with FEMA on a 
pilot project, that you heard Mr. Hoover talk about earlier, 
that will initially utilize the industry's text-message 
capability, its SMS capabilities. While there are both 
limitations on the number of SMS messages that can be sent 
during any one period of time, as well as on the number of 
characters that can be contained in any one single message, 
there is one significant benefit to the short-term use of SMS, 
and that is that it is available today. However, this initial 
service must be approached with caution, as the limitations and 
concerns regarding both capacity and message content are likely 
to arise during an emergency.
    As part of the second, longer-term element of the 
industry's effort, CTIA and the industry are investigating 
mechanisms for geographic delivery of messages. This second-
stage effort is designed to take advantage of the constant 
evolution that is a hallmark of our industry. The industry is 
looking into what role, if any, capabilities such as cell 
broadcasts could play in the emergency alert environment. 
Additionally, the industry is investigating other potential 
delivery mechanisms, including whether the existing NOAA 
service could be incorporated into a wireless phone, as well as 
whether SMS messages can be targeted geographically.
    Several of the capabilities being investigated for longer-
term delivery would require the industry to address issues 
including standardization, product development and deployment, 
and, possibly, handset replacement. In the interim, CTIA 
continues to work with FEMA on the creation of a framework for 
development of an alert service that ultimately can be 
transmitted on multiple retransmission media. CTIA and the 
industry believe that any emergency alert service should not 
focus solely on the wireless network, as the networks are not 
currently designed to pass messages to all active subscribers 
simultaneously. Rather, an emergency alert service should 
utilize the full range of communications devices, such as 
phones, e-mail, and instant messaging, radios, television sets, 
and satellite.
    The efforts discussed above are only part of the work being 
done in this area. More work needs to be completed, and, 
ultimately, government can help. A true government-industry 
partnership, as occurred during the creation of the wireless 
priority service, will aid in that development. CTIA and the 
industry believe that it is counterproductive to have a 
statutory mandate in this environment. Application of the 
wireless priority service model of government-industry 
partnership will lead to a solution that takes advantage of the 
industry's creativity and ingenuity.
    As government and industry move forward with both a short-
term and possibly longer-term solution, addressing issues 
including liability relief, establishment of a service 
description, designation of an authority for development, as 
well as operation of the alert service, and funding, will be 
beneficial. CTIA and the industry look forward to continuing 
the partnership between government and industry.
    Thank you, again, for this opportunity to discuss the 
wireless industry's efforts. We look forward to working with 
you and your staffs toward a service that will benefit 
American. And I look forward to addressing any questions that 
you might have.
    Thank you.
    [The prepared statement of Mr. Guttman-McCabe follows:]

   Prepared Statement of Christopher Guttman-McCabe, Assistant Vice 
President, Homeland Security and Regulatory Policy, CTIA--The Wireless 
                       Association <SUP>TM</SUP>
    Good morning Chairman DeMint, Ranking Member Nelson, and 
distinguished members of the Subcommittee. I am Christopher Guttman-
McCabe, Assistant Vice President for Homeland Security and Regulatory 
Policy at CTIA, The Wireless Association.<SUP>TM</SUP> CTIA is the 
international organization that represents all sectors of the wireless 
communications industry: wireless carriers, manufacturers, and data 
companies. I am privileged to appear before you today to discuss the 
wireless industry's efforts regarding creation of an all hazards 
network and what role government can play in that effort.
    The wireless industry recognizes the importance of this effort. 
CTIA and the industry have dedicated resources to examine this issue 
and are working toward an emergency alert capability. CTIA and the 
industry have coordinated their efforts with the Department of Homeland 
Security and the Federal Emergency Management Agency (FEMA), as well as 
with the Federal Communications Commission. As discussed below, the 
industry also recently launched a voluntary Wireless AMBER Alert 
Service that not only will help to protect our Nation's children, but 
also may provide a useful template as the industry moves forward with 
an Emergency Alert service. While the AMBER alert service differs from 
an Emergency Alert service in that the AMBER Alerts are not necessarily 
initiated during a time of severe network congestions (as is likely the 
case in the context of an Emergency Alert), the industry already has 
begun to learn from the provision of this service.
Background
    The wireless industry, like many other high-tech industries, is in 
a process of continual change and renewal. The wireless industry has 
invested billions of dollars in their networks. Additionally, consumers 
also have invested billions in handsets, wireless PDAs, and data cards. 
The industry runs on a mix of technologies varying from first 
generation analog to the latest third-generation designs. Manufacturers 
and service providers unveil new capabilities every few days. New 
technologies and services are likely to extend both the reach and 
capacity of wireless. Unfortunately, we do not know today what all 
those new capabilities will be or when they will become available. A 
sensible emergency alerting policy must take into account both the 
massive investment in place today--an investment that defines the 
capabilities that can be used this year and next--and the technological 
developments that propel the industry in the long run.
    Developing a national emergency alerting policy should not be a 
one-time event. Going forward, there should be a continuing process for 
identifying the emergency alert environment, as well as industry 
capabilities. Uses and expectations of the service will indicate what 
may be appropriate for capacity of message delivery in the short term 
and long term. Further, the scope of who uses the system and for what 
purpose is very important to understand as it relates to the cost to 
develop, the management of the service, and effectiveness of the 
system.
    CTIA, working with the industry, has initiated a two-part approach 
toward development of an Emergency Alert capability. The goal is to 
balance the industry's existing capabilities with the perceived 
requirements of an Emergency Alert service, at the same time 
recognizing that the industry is evolving. The continued evolution of 
the industry likely will result in different options being considered 
for delivery of Emergency Alert messages. For example, currently there 
is nothing deployed in the network for delivering messages to a 
specific targeted geographic area. Handsets and/or networks would have 
to be upgraded or replaced in order to provide such a service, and 
development and deployment of any geographic service would take time.
    Accordingly, CTIA and the industry are initially working within 
existing capabilities to establish and initiate a voluntary effort to 
deliver Presidential-level Emergency Alert messages via Short Message 
Service (SMS), or text message, to those subscribers that opt in to a 
participating carrier. As discussed below, CTIA and the wireless 
industry are partnering with FEMA on a pilot project that initially 
will utilize the industry's existing SMS, or text message, 
capabilities. The SMS capability exists in the majority of handsets, 
and is provided by the overwhelming majority of carriers.
    While there are both limitations on the number of SMS messages that 
can be sent during any one period of time, as well as limitations on 
the number of characters that can be contained in any single message, 
there is one significant benefit to the short-term use of SMS--it is 
available today. Utilizing SMS initially will work to avoid a 
significant amount of the development time frame that will accompany 
the solutions discussed below. However, this initial service must be 
approached with caution, as the limitations and concerns regarding both 
capacity and message content are likely to arise during an emergency.
    Unlike the existing Emergency Alert network, which operates on 
broadcast networks designed to transmit messages from one point to 
multiple points, the existing wireless network was designed to be point 
to point--one customer to another customer, where the network has to 
route calls and text messages using switches and databases to direct 
traffic to individual users. In this environment, utilization of SMS to 
retransmit messages likely will result in latency of delivery of the 
message to consumers. However, as was concluded in the Wireless AMBER 
Alert context, an SMS offering--despite its expected limitations--is 
the best existing, short-term option for delivery of alert messages.
    Second, as part of the longer term effort going forward, CTIA and 
the industry are investigating mechanisms for geographic delivery of 
messages. This second stage effort is designed to take advantage of the 
constant evolution that is the hallmark of the wireless industry. The 
goal is to address the capacity issues that are part of any SMS-based 
alert service, as well as to develop a capability for targeting 
messages geographically. The capability to deliver messages 
geographically currently does not exist in wireless networks in the 
United States. Wireless service is based on point-to-point 
communications, and has not been designed for point-to-multipoint 
broadcast.
    The industry is looking into what role, if any, services such as 
cell broadcast could ultimately play in the Emergency Alert 
environment. Additionally, the industry is investigating whether the 
existing National Oceanic and Atmospheric Administration (NOAA) service 
can be incorporated into a wireless phone, as well as whether SMS 
messages can be targeted geographically. Recent developments, including 
but not limited to broadcast offerings on wireless phones, as well as 
services such as Qualcomm's proposed MediaFlo offering, highlight how 
the industry and its technology are in transition.
    Several of the capabilities being investigated for a geographic-
based service would require the industry to address issues including 
standardization (both of the underlying product as well as the alert 
development and delivery process), product development and deployment, 
as well as the need for handset turnover if the service is not 
available in existing handsets. In the interim, CTIA continues to work 
with FEMA on the creation of a framework for development of an alert 
service that ultimately can be transmitted on multiple retransmission 
media, including wireless. CTIA and the industry believe, however, that 
while wireless can be a component of any alerting service, any 
Emergency Alert service should not focus solely on the wireless 
network, as the wireless networks are not currently designed to pass a 
message to all active subscribers simultaneously. Rather, an Emergency 
Alert service should utilize the full range of communications devices, 
such as wireline and wireless telephones, e-mail and instant messaging 
systems, radios and television sets.
FEMA Capitol Region Pilot Project
    CTIA has been working diligently with carriers, manufacturers, and 
FEMA on a digital Emergency Alert pilot project in the national capitol 
region. The pilot project, being directed by FEMA, coordinated with the 
Association of Public Television Stations (APTS), and utilizing the 
digital broadcast spectrum, is designed to provide the Nation with an 
enhanced alert system. The goal of the first phase of the project was a 
``proof of concept'' that Emergency Alert messages can be sent from 
FEMA to public broadcasters, imbedded in the digital broadcast 
spectrum, and then re-transmitted to third parties, including wireless 
carriers. A portion of the imbedded Emergency Alert message contained a 
text file that the wireless carriers were able to extract. Phase 1 of 
the pilot project has successfully been completed.
    As part of the second phase of the pilot project, FEMA, APTS, and 
the five nationwide wireless carriers that are participating in the 
project will now focus on making the service scaleable so that messages 
that are initiated by FEMA ultimately can be passed through directly to 
the wireless carriers' networks. To date, several of the carriers have 
successfully re-transmitted a test message to a small portion of their 
employee base. The goal is to ensure that a system is in place whereby 
a message can originate at FEMA, and be transmitted and retransmitted 
without ever being edited, touched, or handled by any of the 
participating companies. Ultimately, Phase II of the pilot project 
envisions that an Emergency Alert message will be retransmitted to some 
portion of the carriers' customer base.
    As discussed above, the carriers, initially, will utilize their 
existing SMS capabilities to retransmit a text message to customers 
that opt-in to receive the alerts. Ultimately, carriers may use one of 
the other longer-term methods being considered to retransmit the 
message to a specific geographic location. Whatever method a company 
chooses to utilize for retransmission, the industry is looking forward 
to completion of an Emergency Alert process that ultimately can take 
advantage of any of the new capabilities or services that will emerge 
from this highly innovative industry.
AMBER Alerts
    The industry already is pursuing use of the wireless phone for the 
safety of the country. On its own initiative, the industry has launched 
a Wireless AMBER Alert Service that will provide another level of 
safety to its customers and the American public. This service enhances 
the industry's vast array of socially responsible initiatives. 
Partnering with the National Center for Missing & Exploited Children 
(NCMEC) as well as the Department of Justice (the designated national 
AMBER Alert coordinator), the wireless industry is making potentially 
life-saving AMBER Alert text messages available to wireless subscribers 
who ``opt-in'' to the offering. The carriers currently participating 
collectively provide service to more than 90 percent of U.S. wireless 
customers. The service has been designed to be scaleable so that 
additional carriers can continue to join the effort going forward.
    Wireless AMBER Alerts will significantly increase the reach of the 
AMBER Alert notification program. Past experiences indicate the first 3 
hours are critical to the successful recovery of an abducted child, and 
the Wireless AMBER Alerts will be an invaluable tool in assisting the 
search process. According to the NCMEC, Wireless AMBER Alerts will 
potentially serve as a preventive tool as well. People who prey on 
innocent children will perhaps think twice before carrying out their 
malicious acts, knowing that almost any cell phone owner they pass 
could identify a perpetrator and have access to the immediate means to 
guide law enforcement officials to their location.
    Under the program, the subscribers of participating carriers may 
``opt-in'' to receive Wireless AMBER Alerts, and may do so at 
www.wirelessAMBERalerts.org, or by visiting their wireless service 
provider's website.
Going Forward
    The efforts discussed above are only a part of the work being done 
in this area. More work needs to be completed, and, ultimately, 
government can help. A true government/industry partnership will 
facilitate development and deployment of the service. The wireless 
industry has in its immediate past an example of what can happen when 
government and industry partner voluntarily on the creation of a new 
service--Wireless Priority Service. Wireless Priority Service is a 
White House-directed National Security/Emergency Preparedness program, 
through the National Communications System, that utilizes the 
commercial wireless networks to deliver priority access to key 
government officials during times of crisis and high call volume. 
Government, through both the National Communications System and the 
Federal Communications Commission, worked with industry on development 
of the requirements for the service, but did not mandate a solution. 
Instead, government has provided funding to manufacturers and vendors 
for development of the capability, resulting in rapid deployment of the 
service in two phases.
    CTIA and the wireless industry believe that it is counter-
productive to have a statutory mandate in this environment. Application 
of the Wireless Priority Service model of government/industry 
partnership will lead to a solution that takes advantage of the 
industry's creativity and ingenuity. As government and industry move 
forward with both a short-term and possibly longer-term solution, the 
following are some of the issues that would benefit from joint 
government/industry consideration:

  <bullet> Liability relief. As with the Broadcasters that currently 
        provide the Emergency Alert service, the industry requires full 
        liability protection for delivery of any Emergency Alert 
        message, both for any short-term solution and any longer-term 
        solution.

  <bullet> Service Description. A joint government/industry partnership 
        to develop the requirements of any emergency alert service that 
        ultimately would result in the development and adoption of 
        standards. This partnership will allow manufacturers to build 
        to specific requirements.

  <bullet> Designation of Authority for Development of an Emergency 
        Alert Service. Designation of a specific authority responsible 
        for balancing local, state and Federal requirements against 
        industry capabilities.

  <bullet> Designation of Authority for Operation of an Emergency Alert 
        Service. Designation of a specific authority tasked with 
        operation of the Emergency Alert service as well as creation of 
        a clear set of rules governing who is permitted to generate 
        messages and under what circumstances they can be generated, 
        coupled with a process to authenticate and secure any Emergency 
        Alert messages. Due to the possibility of a hoax transmission, 
        this process must guarantee the integrity of the messages from 
        the point of origination to delivery.

  <bullet> Research, Development, Deployment and Implementation 
        Support. The provision of funding to support research and 
        development, as well as deployment and implementation, will 
        benefit the establishment of a nationwide alert service.

Conclusion
    CTIA and the industry look forward to continuing the partnership 
between government and industry toward development of an Emergency 
Alert service. Thank you again for this opportunity to discuss the 
wireless industry's efforts that could contribute to an all hazards 
network and what role the Government should play in that effort. We 
look forward to working with you and your staff toward a service that 
will benefit America.

    Senator DeMint. Thank you.
    Mr. Taylor?

STATEMENT OF RICHARD TAYLOR, EXECUTIVE DIRECTOR, NORTH CAROLINA 
 WIRELESS 911 BOARD; CHAIRMAN, THE COMCARE ALLIANCE AND E-911 
    INSTITUTE; PARTNER, THE NATIONAL EMERGENCY ALERTING AND 
                           RESPONSE 
                   SYSTEMS INITIATIVE (NEARS)

    Mr. Taylor. Good morning, Mr. Chairman and Senator Nelson. 
Thank you so much for the opportunity to testify.
    My name is Richard Taylor. I'm the Executive Director of 
the North Carolina Wireless 911 Board. I also have the 
privilege of chairing the COMCARE Alliance. I am also Chair of 
the E-911 Institute. And today there are few issues that are 
more important to our members than the one that we're 
discussing here and now.
    COMCARE is a national nonprofit alliance dedicated to 
advancing emergency response. COMCARE is unique in that we 
represent the wide diversity of the emergency-response 
community.
    I am also testifying on behalf of the National Emergency 
Alerting and Response Systems Initiative, or NEARS. The 17 
national organizations that are NEARS partners represent over 
40,000 individual agencies and over 400,000 individuals in the 
emergency-response profession.
    The most effective public warning system is one that 
achieves the greatest possible reach. It is one that is used 
for all-hazards reporting, not just for specific incidents. 
However, there will never be one system that solves the 
problem. An interoperable solution for public warning will not 
be achieved by purchasing a new national emergency-alert 
network for the 100,000-plus emergency agencies, much less 
solve the other public and private organizations that need to 
be part of an emergency network.
    We must focus on connecting these emergency agencies 
through one system of systems, or an internetwork. This 
emergency internetwork will allow these organizations to 
contact the public through growing numbers of consumer devices.
    Another key component is emergency data standards for 
public warning. The Common Alerting Protocol fundamentally 
solves that problem. Now we need vendors to build interfaces to 
those standards. Agencies have invested millions of dollars to 
equip themselves. We need to leverage these investments instead 
of replacing them.
    Progress is already being made. DHS and DOJ are leading the 
development of emergency data dictionaries, models, and 
emergency message standards. SAFECOMM and related efforts are 
making significant progress on the radio interoperability 
front. As evidenced by NEARS and other developments, the 
leadership of a significant number of emergency professions has 
put their turf aside, in favor of cooperation.
    A critical missing piece is a new idea, the need for a 
routing directory. Almost every one of the emergency warning 
systems has a different owner with different jurisdictions or 
geographical interests, different incident interests, and 
different electronic addresses. These differences have always 
existed, but the advancements in technology have created new 
questions. How does an agency sending an alert know who the 
right organization is for public alerting in the target area, 
much less their correct computer address, incident interest, or 
geographic area of those interests? The answer is that no 
central entity can. That is why the shared registry, the 
emergency provider access directory, or EPAD, makes so much 
sense. If an organization wants to receive alerts and/or public 
warnings, either for itself or to pass on to others, it would 
simply need to register in the EPAD, with proper authorization. 
Instead of the inefficient creation of single-purpose 
directories, there should be one shared routing directory for 
all-hazards messaging, owned and managed on a nonprofit basis 
by the emergency-response profession.
    We also need a similar shared rights-management system. 
What agencies are allowed to send alerts? What agencies are 
allowed to receive different types of alerts?
    COMCARE has been working on these exact issues for more 
than 4 years. The result was a prototype of EPAD designed by 
teams of emergency practitioners and contributed by DICE 
Corporation. I would be delighted to schedule a time to show 
this to you.
    Thanks to a major grant from the Department of Justice, we 
have run a series of national demonstrations using EPAD. We've 
funded the development of more than one-hundred pages of vetted 
final design and detailed technical architecture for both 
routing and rights management modules, and we have them right 
here today. We are ready to build the production version. The 
next step of the NEARS initiative is to obtain the funding.
    NEARS is a unique plan to make a successful all-hazards 
alerting system possible. NEAR brings together leading 
emergency-response organizations around a common architecture 
and a specific plan, not a particular product. The detailed 
NEARS proposal is available on the Internet, at NEARS.us. The 
NEARS proposal provides for national demonstrations, building 
the production EPAD routing and rights management tools, and 
detailed beta field testing. It serves multiple missions, so it 
should be funded from multiple pockets of already appropriated 
funds. We believe it can move to a self-sustaining basis in 2 
years, with interim Federal funding of less than $20 million.
    The NEARS partner organizations have created a unique 
multi-professional effort. We need your support to deliver on 
this promise for the American public. We request that Congress 
strongly encourage agencies to fund NEARS from already 
appropriated funds.
    Thank you so much for your attention, and I'll entertain 
any questions.
    [The prepared statement of Mr. Taylor follows:]

    Prepared Statement of Richard Taylor, Executive Director, North 
 Carolina Wireless 911 Board; Chairman, the COMCARE Alliance and E-911 
   Institute; Partner, the National Emergency Alerting and Response 
                       Systems Initiative (NEARS)
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify before you today on this critical topic. There 
are few issues more important to our membership than the one you are 
discussing today.
    COMCARE is a national non-profit alliance dedicated to advancing 
emergency response by promoting modern, interoperable emergency 
communications systems, and the development of new procedures, 
training, and tools to maximize value for emergency responders. COMCARE 
encourages cooperation across professional, jurisdictional and 
geographic lines, and works to integrate the emergency response 
professions, government, private industry and the public. COMCARE's 
100+ organizational members represent the wide diversity of the 
emergency response community. For more information visit 
www.comcare.org.
    COMCARE's goal is to promote an integrated, coordinated approach to 
emergency communications and support the development of a comprehensive 
``end-to-end system'' to link the public to emergency agencies, and to 
link those agencies together. Introducing 21st Century information and 
communications technologies to the often-antiquated communications 
infrastructure of emergency agencies will save thousands of lives each 
year, substantially reduce the severity of injuries, and enhance 
homeland security.
    Our members have a vision of an integrated emergency communications 
and information system linking the public to emergency agencies, and 
linking the agencies to each other in a seamless network. This 
integrated network would equally serve to protect Americans during both 
daily and mass emergencies. The goal is to incorporate today's systems 
with tomorrow's technology under the cooperative guidance of local and 
national leadership.
    I am also testifying on behalf of the National Emergency Alerting 
and Response Initiative (NEARS). Our NEARS partners include the 
American College of Emergency Physicians (ACEP), the American Public 
Health Association (APHA), the Brain Trauma Foundation (BTF), COMCARE, 
the Emergency Interoperability Consortium (EIC), the Emergency Nurses 
Association (ENA), the Fraternal Order of Police (FOP), the George 
Washington University Homeland Security Policy Institute (GWHSPI), the 
International Association of Emergency Managers (IAEM), the National 
Association of EMS Physicians (NAEMSP), the National Association of 
EMTs (NAEMT), the National Association of State EMS Directors 
(NASEMSD), the National Emergency Number Association (NENA), the 
National Volunteer Fire Council (NVFC), the Public Broadcasting 
Service, and others. See www.nears.us.
Summary of Testimony
    We believe there are five essential building blocks for an 
effective, interoperable national public warning system.

  <bullet> Interoperable pathways for agencies to exchange information

  <bullet> Multiple communications channels from emergency agencies to 
        the public

  <bullet> A standards based system

  <bullet> A series of shared Facilitation Services

  <bullet> Use rules defined by emergency leaders and implemented 
        through the Facilitation Services

    Functional interoperability will not come from building a single 
new network, or multiple ones for specific types of warnings. There are 
close to 100,000 emergency agencies. There are hundreds of high quality 
communications systems in the emergency response and communications 
community now, and in the media. The physical networks to connect these 
organizations mostly already exist. We must take advantage of the 
extensive networks that are already in place and the tools that are 
used everyday by our emergency agencies. We should think of this as an 
``internetwork'', and focus on connecting a wide variety of wireline 
and wireless networks that are controlled by a large number of separate 
entities.
    This emergency internetwork will allow organizations to contact the 
public through all the burgeoning number of devices they have, not just 
one or two: wireless voice and data messaging, television, radio, 
beepers, ISPs, mass calling, and the like. Most discussions of public 
warning focus on this part of the process, the end point in the hands 
or living rooms of citizens. The COMCARE and NEARS focus has been on 
the other necessary pieces to make an all hazards system work.
    Standards create a common language that enables data sharing 
between thousands of individual agency proprietary systems, and with 
the public. For public warning, the Common Alerting Protocol (CAP) 
standard fundamentally solves that problem, particularly when the EDXL 
Distribution Element becomes a standard as we hope it will later this 
year. Now the primary standards challenge is getting vendors to use 
them, to create interfaces to them.
    The next issue is shared Facilitation Services. How does the 
sending agency know who the right organizations for public alerting in 
a target area are, much less their correct computer addresses, incident 
interests, and the geographic areas of those interests? Instead of the 
inefficient profusion of single purpose directories (and the inaccuracy 
that flows from such proliferation), there should be one shared routing 
directory system (actually a federated system of directories) for all 
hazards messaging, owned and managed on a non-profit basis by the 
emergency response professions. The same comments and shared system 
apply to the needed rights management system. The Emergency Provider 
Access Directory (EPAD) NEARS and we advocate performs these routing 
and rights management functions.
    Finally, it is important to separate technical capabilities from 
policy rules governing their use. Technically, we need a system that 
connects every emergency related organization together in the 
internetwork. That does not mean that any agency is allowed to send or 
receive any message or have access to any data. We need organizations 
at local, tribal, state and national levels to develop the policies and 
protocols that determine the rights and roles of agencies in the 
system, and management rules for it.
    The National Emergency Alerting and Response Systems (NEARS) 
Initiative has a unique plan to make a successful All-Hazards Alerting 
system possible. NEARS brings together a wide variety of leading 
emergency response organizations around a common architecture and 
specific plan, not a particular product. With several regional and 
national demonstrations, using a prototype of EPAD (a map-based 
directory of agencies for routing data), we have proved that sharing 
data messages between agencies according to data standards is an 
extremely effective way to communicate with a wide variety of public 
warning systems. Thanks to a significant grant to COMCARE from the 
Department of Justice, EPAD has been specifically defined by teams of 
emergency practitioners, and an extremely detailed design has been 
created. We have more than 100 pages of design and a detailed technical 
architecture for both routing and rights management modules that are 
awaiting funding.
    The 16 national organizations that are NEARS partners represent 
over 40,000 individual agencies and over 400,000 individuals in the 
emergency response professions. Our proposal serves multiple agency 
missions, from public warning, to emergency agency communications, to 
public health. We request that Congress strongly encourage DHS and HHS 
to fund NEARS from already appropriated funds.
Overall Comments
    A public warning interoperability solution will not be achieved by 
the Federal Government purchasing a new national emergency alert 
network or buying a software application for the 100,000-plus emergency 
agencies--much less all the other public and private organizations that 
need to be part of an emergency network. Instead, emergency agencies 
and their communications capabilities should be viewed as a single 
``enterprise'', with tens of thousands of agency owners. This 
enterprise needs to provide full interoperability among all agencies 
(and related organizations), delivering secure information and 
communication to/from response agencies and responders. It needs to 
include comprehensive public warning and education. To be cost 
efficient, it must be multi-user, multi-use, and all hazards.
    The most effective public warning system will be one that gets 
emergency messages to the widest variety of possible alerting 
mechanisms ensuring that the greatest levels of penetration are 
achieved. It will be one that is used for all hazards reporting, not 
just tsunamis, or weather, or homeland security alerts. More 
importantly, it will be one that allows agencies to communicate 
directly with the public and those organizations authorized to send out 
disaster warnings directly to citizens. Finally, there will never be 
one ``system'' that solves the problem. We must have a capability that 
links all alerting solutions and allows for multiple methods of 
communication. That means it must be driven by data standards and based 
on an open architecture. It should not have single points of failure.
    The National Emergency Alerting and Response Systems (NEARS) 
Initiative meets these criteria and can provide a solution to help our 
country achieve its goals. I am here today to ask you to support it as 
part of your broader, overall effort.
The Problem
    Public warning rests on a simple action: some government agency 
needs to send out a warning. Sometimes this goes directly to the 
public; sometimes it goes to other emergency agencies or organizations 
for them in turn to notify the public. Sometimes the key targets of 
alerts are the individual employees of an agency or profession (e.g., 
first responders, physicians).
    In an era where technology can bring news, current events and 
entertainment to the farthest reaches of the world, to almost any 
electronic device, most U.S. emergency response agencies and personnel 
cannot share data with each other, even within the same jurisdiction, 
much less with the public they serve.
    Most new cell phones can take and transmit pictures to any person 
on the Internet. If there were a small pox outbreak, it would be 
enormously valuable for CDC to be able to send pictures of pustules to 
911, EMS, the media, and other key organizations so they could 
communicate them to the public. ``If you have skin that looks like 
this, stay at home. Do not come into the hospital or contact others.''
    But most emergency response agencies cannot send or receive such 
data.
    9/11 challenged the security of the United States and the safety of 
its citizens. Those challenges have identified weak spots in effective 
communication. Such emergencies demand real-time data and inter-
operable communication across all jurisdictions and professional 
boundaries so that agencies can provide information and service to the 
public. There is an urgent need for broadband digital network 
capability for real-time, inter-agency, emergency communication, with 
seamless and effective communication capability from and to the public. 
Telephone and fax will not meet the need. Unfortunately, because we 
don't have standards or an open architecture, to achieve functional 
interoperable data communications today requires the construction of 
innumerable, specialized interfaces as demonstrated in Figure 1. Each 
of these interfaces needs to be replicated in every community. This is 
an unworkable model.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    It is simply impossible to achieve the National Incident Management 
System (NIMS) requirements for Communications and Information 
Management \1\ without interoperable, interagency data communications. 
Yet today there are more than 100,000 emergency response agencies and 
the vast majority of them are not able to rapidly, accurately and 
easily communicate data with each other, much less the public. Except 
at the highest levels of government (e.g., State EOCs and Governors 
that have been given data sharing tools by DHS), there is no regional 
or national emergency data communications capability. In simple terms, 
the President, the Secretary of Homeland Security, the Governor, or the 
EOC of any state, county, tribe or city do not have the ability to send 
or receive secure emergency messages to most of the more than 100,000 
emergency agencies in our country or those in a particular state. 
Indeed, there is no comprehensive electronic directory of these 
agencies that would enable the routing of such messages.
---------------------------------------------------------------------------
    \1\ NIMS Chapter 5.
---------------------------------------------------------------------------
    Underlying this is a clear lack of a comprehensive local, State or 
national emergency communications and IT infrastructure. Most of the 
communications platforms used today are designed as one-off systems and 
solutions. The current system is voice-centric, and filled with stove 
pipes of information. There is little data sharing between agencies, 
much less with the private sector. Different agencies' information 
systems--computer-aided dispatch, emergency-management tools, public 
health applications, wireless data systems in the field, alerting and 
warning systems of all kinds--need to exchange up-to-the-minute 
information, but they cannot.
Solution Overview
    Emergency responders are being asked to do one of the most 
important jobs in our society with generally the least advanced 
communications and information technology. The emergency community 
needs an integrated communications and information system for efficient 
preparedness, public warning, and response. This system needs to 
connect all emergency agencies with voice, data and video, not simply 
provide wireless voice and data connections to agency staff at the 
scene of incidents (which is a critical need). It also needs to connect 
the public to agencies and vice versa. The system needs to exploit the 
latest commercially available technologies, be highly secure, and 
provide emergency agencies with control over their data. Finally, we 
believe it needs to empower responders, giving them the flexibility to 
use emergency information in the ways they (not vendors or some central 
authority) choose, reflecting the different needs and capabilities of 
agencies in the communities of our country. Evacuating a town in rural 
Montana is quite different than evacuating Atlanta.
Recent Progress
    There has been important progress in the last year. DHS and DOJ are 
leading the development of both emergency data dictionaries/models and 
emergency message standards. Project SAFECOMM and related efforts are 
making significant progress on the radio interoperability front. DHS 
and leading technology companies are supporting a range of data 
interoperability trials. A vision and plan for future emergency 
communications structure is emerging from the FCC's Network Reliability 
and Interoperability Council (NRIC) and similar proceedings. As 
evidenced by NEARS and other developments, the leadership of a 
significant number of emergency professions has put ``turf '' aside in 
favor of cooperation. These developments are new and incomplete, but 
encouraging nonetheless.
Public Warning or Interagency Emergency Communications?
    Some draw a distinction between public alerting and interagency 
emergency communications. Certainly at a policy and specific use level, 
these can be different, but in general we do not think the two topics 
can be distinctly separated. Often at the state or local level the 
agency with information that needs to be communicated to the public (or 
the one with the tools that contact the public) is the state or local 
911 center, police department or Emergency Manager. We must first make 
certain that emergency response agencies have the ability to 
efficiently receive and share emergency information of all types. 
Without that assurance there will be no accurate information to share 
with the public. We must also ensure that these agencies know who the 
right outlets are to notify the public and how to share information 
with them in real-time. As the train collision in South Carolina in 
January showed, this is usually not the case in complicated 
emergencies.
What Systems Are Involved?
    Right now there are scores, indeed thousands, of emergency 
notification outlets to the American public. And they are generally 
controlled by thousands of independent emergency response agencies, few 
of which are connected to each other electronically (except by voice 
telephone). Here is a partial list.

  <bullet> *Reverse 911 systems installed at or controlled by some of 
        our 6,500 911 centers.

  <bullet> *A wide variety of public individual notification 
        registration systems (e.g., D.C. Alert) in many of the 4,000 
        state, city and county emergency operations centers.

  <bullet> Commercial registration warning systems (e.g., some of the 
        Amber Alert initiative; wireless company SMS systems).

  <bullet> *Similar systems for senior officials (e.g., RICCS and Roam 
        Secure in D.C.).

  <bullet> *Public Health Alert Networks from health departments 
        linking physicians, hospitals, labs (e.g., Virtual Alert in 
        Virginia).

  <bullet> *NOAA, National Weather Radio.

  <bullet> Commercial and public media: TV, radio, cable, satellite.

  <bullet> Non-traditional media: XM Radio, Sirius, Internet Service 
        Providers.

  <bullet> Wireless carriers; paging companies.

  <bullet> *Specialized community warning systems (e.g., around DOE and 
        DOD facilities).

  <bullet> *The traditional Emergency Alert System using broadcast 
        systems.

  <bullet> *DOT 5-1-1 and private traffic services.

  <bullet> *DOT intelligent transportation public systems (e.g., 
        electronic road signs).

  <bullet> Telematics suppliers and/or their customers (e.g., OnStar 
        and ATX).

  <bullet> Internal corporate notification systems.

    We have placed an asterisk next to the ones that are generally 
considered government emergency agencies--and might be initiating 
public warnings on their own, or because some agency like DHS told them 
to do so. We believe the definition of ``agency'' should include the 
entire above list, although the private ones would probably not be 
initiating alerts on their own). We also have over 140,000 schools--and 
they generally aren't on all hazards warning systems although some have 
weather radios now and they are now almost all connected to the 
Internet due to the e-Rate program.
The Directory Problem
    Almost every one of the systems listed above has a different owner, 
with different jurisdiction or geographical interests, different 
incident interests, and different electronic addresses.
    How are you going to find out that critical warning/alerting 
information distribution data and then keep it current? The answer is 
that no central entity can, local, state or Federal. That is why a 
shared registry where the organizations themselves enter this 
information--in other words, the EPAD we advocate--makes so much sense. 
If an organization wants to receive alerts and/or public warnings, 
either for itself, or to pass on to others, it simply needs to register 
in EPAD, and be authorized to do so. In about 10 minutes using a web 
interface, any such organization can enter what kinds of alerts it 
wants to get, for what geographic area, and delivered to what 
electronic address(es). Then any authorized messaging system can query 
the database and deliver the alerts.
    Indeed, using the directory to enable (provide the addressees for) 
all emergency messages, not just the subset that are national alerts, 
makes it much more likely that agencies and other organizations will 
register and keep their information up to date--so that they can be 
reached by public alerts and warnings.
    NEARS offers the ability to reach any organization (i.e., the above 
list) that is registered to receive or disseminate a public warning 
message based on a geographic location. The detailed design of EPAD is 
done; it is ready to be built.
Current Warning Procedure
    Let's look at a generic public warning message that does not 
originate at the Federal level.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    911 receives a call about flooding in a large area that affects 
roadways, public buildings and a residential area. 911 calls the 
responsible emergency operations center (EOC) to notify them about the 
flood. It may also call other agencies.
    The EOC determines that other agencies like traffic management and 
law enforcement must be called. The EOC enters the incident information 
into its system. It then looks up the telephone numbers for the 
agencies to be notified in its own directory--if it has one--and calls 
them one-by-one. It determines that a public warning message must be 
disseminated to those located in that area. However, it can only do so 
by using a zip code to target the message. Some may get the warning and 
are not affected. Others may not get the warning and could be affected.
    Currently, the EOC uses three different systems to send out public 
warning messages--a text alert system, a voice alert system, and a 
website. The EOC enters the flood-warning message into each system so 
that warning messages can be disseminated.
    The process involves making many phone calls and manually entering 
the incident message into each agency's system and each alerting 
system. The result--valuable time wasted, with an increasing 
possibility of message errors due to multiple manual entries.
    For there to be an effective public alerting system there must be 
only one communications system for all events. One system should be 
created to contact the public for all events, ranging from child 
abductions, to hurricanes, to terrorist attacks. Having multiple 
systems for different types of alerts is wasteful because it creates 
several systems which have a limited range of contact, instead of 
creating one, all-inclusive system. One system will allow all 
registered agencies and organizations to send and receive messages 
about any event.
    Saying that there should be one system, does not mean there should 
be one set of rights, one set of use protocols, or any similar 
capability which is unique to an incident type. The point of 
Facilitation Services is to have electronic tools that allow those 
different capabilities and rules to be implemented.
Essential Parts of a National All-Hazards Alert System
    There must be one system for all warnings, not one for each kind. 
There are tens of thousands of alerts that are sent to emergency 
agencies, the media, and the public each year, and there are thousands 
of agencies who are responsible for reporting these warnings. Cellular 
phones, Internet, CAD systems, text messaging, beepers, television, 
radio, cable should all be used for public alerting. The technology 
exists to create this integrated alerting system.
    There are five essential building blocks or layers for an effective 
interoperable national emergency communications system; they are the 
same for a national public warning system. Some of these layers will be 
provided on highly competitive terms by multiple parties, some are 
shared Facilitation Services offered by collections of emergency 
response agencies, while others are components that will be unique to 
individual agencies:

        1. Pathways for agencies to exchange information.

        2. Pathways from the agencies to the public.

        3. Emergency communications standards.

        4. A set of shared Facilitation Services for routing, rights 
        management, security and the like.

        5. Institutions to define rules and policies.

1. Interagency Communication
    For a successful integrated public warning system to exist there 
must be interoperable communication between agencies. Local 911 
centers, HSOC, NOAA, FEMA, and emergency responders should be linked by 
an alerting network that allows these agencies to receive and 
disseminate the information they need as quickly as possible. We don't 
need to build a new network. Commercial telecommunications entities, 
and state and local governments, have already deployed massive fiber, 
satellite and wireless infrastructures. We need to assume an 
``internetwork'', connecting a wide variety of wireline and wireless 
networks, controlled by a large number of separate entities.
    This can be the public Internet; that has the advantage of being 
available to almost any agency immediately, and for very low cost. 
However, many localities and states have developed their own private IP 
networks; these provide better performance. The primary policy issue--
and one that is very familiar to this Committee--is getting all 
emergency agencies to establish broad band connections.
2. Standards
    Standards create a common language that enables data sharing 
between the thousands of individual agency proprietary systems. It is 
no solution to require all agencies to use the same information 
technology tools. Most agencies will not be willing to let someone else 
make these decisions for them, nor will they be comfortable or 
efficient using tools that they do not use on a daily basis. The costly 
alternatives are to develop individual interfaces for each source of 
data, or to acquire complicated and expensive systems that sit between 
agencies and translate each agency's data language into the others.
    Common standards allow data communication among the disparate 
systems that are already in use, along with new applications as they 
are introduced into the system, by essentially building a single 
interface for all such purposes.
    Standards have to be national. National standards mean local and 
state technology choices will expand and prices should improve, 
following the experience of the private sector with the commercial 
computer industry. It is equally important that representatives from 
the full range of emergency response professions be at the table during 
the national standards development process.
    The Department of Homeland Security (DHS) through OMB's Disaster 
Management eGov Initiative identified the need for data 
interoperability using common standards. DHS is facilitating a process, 
in which COMCARE is proud to be a partner, that brings together leaders 
of the emergency professions that need to share data during emergency 
response operations. The project is developing and field testing a 
common set of emergency message standards (the Emergency Data Exchange 
Language, EDXL). It is also supporting broader efforts to develop 
common data terms and models, specifically the National Information 
Exchange Model (NIEM) project, that is based on the excellent 
pioneering work of the Global Justice XML Data Dictionary and Model. We 
strongly support these efforts, and are using these standards in NEARS 
and our other demonstrations.
3. Communications to the Public
    To get to the public, you first have to get the alert to emergency 
agencies and other organizations (e.g., the media). Agencies and 
organizations will receive alerts and warnings on a wide variety of 
information technology tools before they can decide to (or 
automatically) re-transmit those warnings to the public each serves. 
There are numerous emergency applications in use today, including 
complex Computer Aided Dispatch Systems (CAD), web-based emergency 
management tools, alerting systems for notifying emergency staff, mass 
residential communications systems, and other applications. Each of 
these systems has their own unique functionality; agencies should be 
encouraged to purchase the tools that are best suited for them. 
However, it is critical that these applications all have a standardized 
interface: the ability to send and receive XML messages to other 
applications in standardized formats. When 911 is in charge of public 
alerting, it should not matter to a 911 CAD system that it is receiving 
data from an emergency management tool about a flood, a bioterrorism 
alert from CDC, or data about a 911 call from a wireless company. The 
same data interface should be used. That is what the standards are all 
about.
    Another set of applications and services are those that compete to 
deliver information from these agency-based applications to the public. 
These can range from traditional ones that provide links through 
landline telephones, radio, or data connections, to NOAA weather 
radios, to beepers, warning radio systems, and even the traditional 
sirens. Broadcast television, radio, cable, Internet service providers 
and others provide other outlets to the public. In some cases these are 
linked to more sophisticated systems which enrich incident messages 
with associated data from multiple sources.
    Much of the debate about public warning has tended to revolve 
around the issues of consumer devices: which is ``best''? Should there 
be mandates?
    We believe that public warning is today like a doughnut. There is a 
lot of capability at the edges where the vast array of systems touch 
the public. There is a large hole in the middle. Our preference would 
be to focus on filling the whole, making warnings available in 
standardized forms to all these outlets as appropriate, and then see 
what other steps need to be taken.
4. Facilitation Services
    ``Facilitation services'' are shared tools, services and/or 
resources that are offered by collective effort of the emergency 
response community, and are available to authorized emergency entities 
to enable interoperability. These include, but are not limited to, 
security, diagnostics, routing directory, agency rights management, 
data rights management, and authentication.
    Without a directory of agencies and their electronic addresses, 
public warning messages cannot be routed. Rather than the inefficient 
profusion of single purpose directories that is growing today, we 
believe there should be one shared directory system, owned and managed 
by the emergency response professions. This should be a secure registry 
where authorized agencies enter their name, contact information, 
professional function, level of government, incident interests (and the 
geographical area of both jurisdiction and interest for each type of 
incident), and emergency data delivery address(es). Only authenticated 
and authorized agencies will have access to it on a non-discriminatory 
basis.
    Authentication and rights management are critical as well. There 
must be a trusted way to credential agencies and individuals, provide 
them with appropriate authorizations (both sending and receiving), and 
allow them access to and use of the network. Linking networks will 
require systems that will assure only authorized parties may 
participate, assign them appropriate rights and roles, and authenticate 
communications from them. Rights management also needs to be applied to 
data itself.
    COMCARE has been working on these exact issues for more than 4 
years. The result is the Emergency Provider Access Directory (EPAD). A 
routing prototype developed as a contribution to the public interest by 
our member DICE Corporation is available at http://www.epad.us. We are 
using this in field trials and demonstrations all over the country.
    Thanks to a major grant from the Department of Justice the EPAD 
concept has been advanced a long way. There is now a detailed design of 
the production version of EPAD. More than 100 pages of design and a 
detailed technical architecture are awaiting funding to do the coding. 
This will provide both routing and rights management modules.
5. Policies and Protocols
    It is important to separate technical capabilities from policy 
rules governing their use. Technically, we need a system that connects 
every agency together in a network. And the word ``agency'' must 
include many private sector entities. But that does not mean that any 
agency should be allowed to send or receive any message or have access 
to unregulated data.
    COMCARE believes that emphasis should be placed on system 
flexibility, and local control, using the rights management 
Facilitation Services to allow for messages to be generated from local 
and state emergency managers (to their appropriate audiences) as well 
as national sources. After all, most emergencies are local.
    We need to develop the policies and protocols that determine the 
rights and roles of agencies in the system, and management rules for 
it; a local 911 center should not have the same access within the 
system as a Governor. Some of these policies (and the decision-making 
bodies) are already in place today, whether they are officially written 
policies or not. Many are not, and most lack all the parties they need 
to be effective in this regard. The local, state and Federal law 
enforcement communities are most advanced in this regard. Most other 
emergency agencies are not involved because sharing emergency 
information between them has not been done before. All of these 
policies and protocols will need to be addressed in terms of electronic 
communication.
    Applying this architecture results in a very different approach 
than Figure One. Figure Two shows a more rationalized system where 
appropriate functions are shared.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

NEARS
    The National Emergency Alerting and Response Systems (NEARS) 
Initiative implements national emergency message standards, commercial 
information technologies, and the EPAD shared, electronic directory of 
agencies being developed by a non-profit public/private partnership.
    NEARS is endorsed and led by a growing and diverse coalition of 
emergency response and industry organizations. Participation by others 
is actively encouraged. It is a three-track initiative that promotes 
the concept, develops the service, and tests the service for national 
implementation with actual deployments in several regions.
    NEARS was created to bring together the respective players in the 
emergency alerting area, and to provide a forum for government, 
industry and other interested parties to work together to improve the 
Nation's public warning and emergency messaging capability. Together we 
plan to demonstrate and deploy interoperable emergency data messaging, 
using national emergency message and data standards, commercial 
information technologies, and the EPAD shared, electronic directory of 
agencies. This directory gives agencies the ability to distribute 
emergency messages based on geography, incident or agency type, for all 
types of emergency events.
    Our NEARS partners include the American College of Emergency 
Physicians (ACEP), the American Public Health Association (APHA), the 
Brain Trauma Foundation (BTF), the ComCARE Alliance, the Emergency 
Interoperability Consortium (EIC), the Emergency Nurses Association 
(ENA), the Fraternal Order of Police (FOP), the George Washington 
University Homeland Security Policy Institute (GWHSPI), the 
International Association of Emergency Managers (IAEM), the National 
Association of EMS Physicians (NAEMSP), the National Association of 
EMTs (NAEMT), the National Association of State EMS Directors 
(NASEMSD), the National Emergency Number Association (NENA), the 
National Volunteer Fire Council (NVFC), the Public Broadcasting 
Service, and others.
    Some criticize responders for only communicating within their 
professional silos. However, the growing number of organizations who 
support NEARS clearly demonstrate that there is willingness to change. 
Collectively, the NEARS partner organizations represent a large cross 
section of the emergency response community--Law Enforcement, Fire, 
EMS, Public Health, 911, Emergency Management, and the media. We do not 
have all the groups we want, but the current partners represent over 
40,000 individual agencies and over 400,000 individuals in the 
emergency response profession. This is a solid foundation and the 
initiative continues to add partners. We hope you will strongly 
encourage DHS to fund this project, providing the ability for emergency 
response organizations of all types to share information amongst 
themselves and with the public during emergencies. It serves a variety 
of homeland security purposes.
    The NEARS partners seek to attract involvement from all the 
leadership groups of these professions and from additional segments 
such as hospitals, transportation, state and local government and keep 
it growing.
    Once NEARS is deployed, this is how this same scenario would play 
out.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    911 receives the call and enters incident information into its 
system and requests that the message be sent to all appropriate 
agencies in the area. The 911 system then queries EPAD and using an 
EDXL Distribution Element sends a CAP message to all agency addresses 
that are returned.
    The message is entered once--into the 911 system and disseminated 
electronically to all appropriate agencies as well as to the public 
alerting systems if the EOC elected to do so. The EOC can then schedule 
public dissemination once the message is reviewed and approved. The 
whole process is quick and efficient and the public is notified in time 
for them to react--no phone calls, no multiple entries, no errors.
    When a user or other entity initiates a login or message, EPAD 
Identity Rights Management authenticates it and indicates what 
privileges are allowed.
    If the user and/or system or device is allowed to create and send 
an incident message, the message can be created and EPAD can be queried 
for instructions as to where to send it. The system or device can query 
EPAD directly or it can use a message broker service that will query 
EPAD and disseminate it for the entity. In either case, a web service 
query is sent indicating the type and time of the incident, where it 
occurred and, if applicable, what types of agencies should be notified. 
EPAD will search the directory to determine the entities that requested 
this type of information. It will send back a list of all entities 
indicating how the entity wishes to be contacted. It can be a system to 
system transmission, an automated phone call to certain individuals 
and/or other types of contact.
    The system or message broker then sends the message to all entities 
simultaneously. If the user and/or entity is authorized to do so, it 
can review the list first and make changes to the distribution list 
before dissemination.
Public Broadcasting
    A special word about public broadcasting is in order. I am 
delighted that they are represented at this hearing.
    Public broadcasting can play a critical role in emergency 
preparedness, emergency communications and public warning. As John 
Lawson of APTS has testified, there have been successful experiments in 
data casting using digital capacity of stations and the PBS 
interconnection. We commend APTS and DHS for those forward thinking 
trials. We encourage the proliferation of this capability. But to limit 
public broadcasting to this role would be to give up some critical 
strengths it can offer. In addition to whatever data casting capability 
public broadcasting might have in the future, we should take full 
advantage of three unique attributes it can offer us today:

  <bullet> Network capacity provider: PBS has a national backbone 
        digital satellite and terrestrial network reaching every state 
        and significant community in the country.

  <bullet> Local television and radio signals reach out from that core 
        network to cover over 99 percent of Americans. \2\
---------------------------------------------------------------------------
    \2\ Beyond pure technical contributions, we just recognize that 
public broadcasting is made up of respected and ``neutral'' local 
station organizations directed by community leaders; a similar national 
organization which can play a convening role in the key public and 
private partnerships needed. They also have highly experienced and 
successful local and national programming capabilities which can be 
used to build training and other content for alerts.

  <bullet> Public broadcasting is made up of trusted and respected 
        local and national public service organizations that could be a 
---------------------------------------------------------------------------
        ``Switzerland'' in bringing together all the relevant parties.

    PBS is a NEARS partner. We think PBS could be a national leader in 
convening the coalition partners to identify the connectivity and 
interconnection requirements locally, regionally and nationally of the 
various agencies and organizations. Second, PBS would work in 
collaboration with the initiative partners to incorporate agreed to 
standards, routing and authorization applications, data messaging 
formats and any necessary trial/pilot demonstrations. The NEARS 
Initiative is exactly such a nonprofit public service coalition 
project.
Conclusion
    The detailed NEARS proposal is available at www.nears.us. It is 
based on the important investment by the Justice Department in EPAD, 
and the DHS investment in common emergency messaging standards. The 
NEARS proposal provides for national demonstrations, building 
production quality EPAD routing and rights management tools, and 
detailed beta field testing of them. Because it serves the missions of 
multiple government agencies, it is the priority of none of them. 
Because it serves multiple missions, it can and should be funded from 
multiple ``pockets'' of already appropriated funds. We believe it can 
move to a self-sustaining basis in 2 years, with Federal funding of 
less than $20 million.
    Thanks to the leadership of my colleagues from the other NEARS 
partner organizations we have created a unique, multi-professional 
effort. We have overcome the turf concerns. We need your support to 
deliver on this promise for the American public.

    Senator DeMint. Mr. Guttman-McCabe, let me ask you a 
question. One of my concerns in this process is, we'll come up 
with mandates, for instance, that wireless services will have 
to broadcast a message. And, you mentioned that wireless 
servers, like the one I have for this, are not set up to 
broadcast, so we'd have to change their technology in order to 
do that. I'd like to make sure we have thought of other 
options. And my question, just a technical question--this is 
designed to receive a signal from only one server. Is there any 
way this could be easily adapted so that, in an emergency, that 
it could receive, directly, a signal from public broadcasting 
digital, and not even go through the central server that it's 
designed to pick up from?
    Mr. Guttman-McCabe. Mr. Chairman, let me answer that with a 
strong caveat that it would probably be beyond my technical 
expertise. But I--the systems, I think, are designed--and the 
handsets, whether it be a BlackBerry handset or a wireless 
handset--are designed to be operational solely with that 
wireless provider.
    Senator DeMint. Right.
    Mr. Guttman-McCabe. So, our industry is made up of 
different technologies and different platforms, and, even 
within those platforms, there are different generations of 
technologies. That's part of what makes moving forward with an 
emergency alert service a difficult concept, a difficult 
process.
    Senator DeMint. Well, do you think there will need to be a 
Federal mandate that wireless companies cooperate, that they 
all basically do the same thing in order for there to be 
cooperation from the wireless industry?
    Mr. Guttman-McCabe. Mr. Chairman, I would say that I think 
we would support exactly the opposite contention, that if left 
to the ingenuity and the creativity of the industry, you're 
going to get a solution that makes most sense with the existing 
technology, but also that recognizes that there will be an 
evolution in the networks. And I fear that if something were to 
be mandated--and I think you, in the earlier panel, stated such 
fears--I fear that government could get it wrong and that a 
choice could be made on a technology that, by the time the 
process is developed and the standards are developed and the 
equipment is developed, it's already a generation behind what 
actually exists.
    So, I think I would--the industry, I think, would 
wholeheartedly support a voluntary effort and a cooperative 
effort with government.
    Senator DeMint. Senator Nelson?
    Senator Ben Nelson. Maybe any one of you could respond to 
the concern with the 100,000 agencies and the potential of 
multiple warnings instantaneously around the country. At what 
point do we run the risk of an overload? Is the capacity--that 
you currently have from public broadcasting--capable of 
receiving such warnings from so many different locations and 
then disseminating them?
    Mr. Lawson. Senator, we have the capacity even to do video 
through--this is all browser-based, this is Internet protocol--
even to do video requires just a fraction of what we have. I 
think the----
    Senator Ben Nelson. But if you have multiple warnings--I 
doubt that you could have 100,000--coming from all at one 
instant in time, would there be an overload point for the 
technology?
    Mr. Lawson. Since we're talking about regional, for a local 
public television station, there is a limit to what we can put 
over the satellite, certainly, but you wouldn't have 100,000 
coming in to us--one public station. You might have a dozen or 
so agencies. The real question is the overload of information 
that the public receives.
    Senator Ben Nelson. Well, that's a given, yes.
    Mr. Lawson. Right. So right now, under the analog EAS, we 
and the other broadcasters do have a responsibility to pass 
along Presidential messaging in the event of a national 
emergency, but there is a voluntary system in place, in terms 
of what is carried from local and state governments. And I 
think one of the challenges we face is to work out the 
protocols, we, in FEMA, are planning to roll out a national 
Federal alert system. The challenge of connecting local and 
state emergency managers to that system, to that backbone, to 
use local stations, is partially financial, but it's also 
working out the exact kinds of protocols I think you're 
alluding to, in terms of what is emergency data, what is 
emergency information, and what is our responsibility to pass 
it on, on a metropolitan-wide basis, if it's only affecting a 
certain part of the community.
    Senator Ben Nelson. What about security? In other words, 
with the advent of so much information, the potential for 
warning information to be put out in alerts, what kind of 
assurance can we have that will be authorized, that you won't 
have the equivalent of spam or people intervening and putting 
out their own misinformation?
    Mr. Lawson. Well, I can tell you, in our situation, we're 
looking at a dedicated communication link between FEMA and our 
satellite system of the local station transmitter. That has to 
be secure, and it has to be hardened. And I'm sure that will be 
part of the rollout. But in terms of what leaves the station, 
what leaves the transmitter, in terms of over-the-air, it's 
pretty much unhackable at that point. And we can encrypt it, so 
that only certain people, authorized users, can have access to 
that information.
    Senator Ben Nelson. Therefore, the chances of an April 
Fool's joke is probably remote or nonexistent.
    Mr. Lawson. In the system that we're testing here in the 
national capital region, yes, sir, I think it would be pretty 
difficult.
    Mr. Guttman-McCabe. Senator, that is a concern of ours, and 
it's something that we think--we agree, that is being worked. 
And part of the process of working with FEMA and Mr. Hoover is 
getting to a policy and a process whereby--as Mr. Hoover 
mentioned, whereby messages are originated, at some point, and 
then not touched as they move throughout the process. So, when 
they move through a wireless network, we--our industry 
understands that it has not been corrupted, it's not 
corruptible, it has been authenticated, and that no one on the 
wireless side has to touch the message. And I think that is a 
key concern and a key element of any network, going forward.
    Senator Ben Nelson. So, it wouldn't be as amateurish as the 
signals between the pitcher and the catcher in a baseball game.
    [Laughter.]
    Mr. Guttman-McCabe. One would hope not.
    Senator Ben Nelson. All right. Thank you.
    Senator DeMint. I think you were here to hear the first 
panel. I'd be interested in your comments. We're completing 
legislation at this point. I have a new sense of urgency to 
complete it and get it passed, because it's going to be a rush 
to get it done before the FCC completes their rulemaking, 
without the legislation, apparently. But based on what you 
heard, what are your concerns about the rulemaking, about the 
legislation, or what would you like to make sure that we 
include in this? And I'll just ask each of you to give just a 
very brief comment before we close.
    Mr. Guttman-McCabe. Thank you, Mr. Chairman.
    You have voiced, actually, some of our concerns, the 
concern that a technology choice will be made, or that a date 
certain will be set that doesn't make sense, in terms of 
development of a solution. That's why CTIA and the industry 
have approached this with a two-part solution, the first part 
being working with FEMA on the pilot project, utilizing an SMS-
based solution, existing technologies, sending a text message 
to devices, and utilizing an opt-in service, but also 
simultaneously looking at some longer-term solutions that 
address issues like capacity and the ability to target messages 
geographically. So, I would be concerned and would want to 
ensure that any legislation, from our perspective, would 
recognize those limitations.
    Also, addressing issues such as an actual description of 
what the service should be. It's difficult for manufacturers to 
build a technology to a service that they don't know exactly 
what the parameters are, of yet. Again, who can send a message? 
When can they send a message? What should the message contain? 
Does it contain data? Does it contain pictures and maps? How 
quickly does it have to be disseminated, and to whom?
    So, all of those things will inform the standards groups, 
and the standards groups will turn around and develop standards 
by which the manufacturers can build equipment.
    So, this is a process that actually is ongoing, much like 
Mr. Hoover and their effort to develop a coordinated government 
effort. These efforts are ongoing, and we would hope that any 
legislation wouldn't, sort of, either short-circuit that 
process or derail it in a way that actually harmed the actual 
development of a service.
    Senator DeMint. Mr. Taylor?
    Mr. Taylor. I come from a rural area of Eastern Carolina 
that's had its share of hurricanes, but it also has its share 
of 911 centers that have invested what little bit of money they 
have into systems that they feel like they can work with, that 
they can afford. Our concern is that we don't need to go out 
and build new wheels; we have wheels that work right now. We 
have rural areas, we have PSAPs, we have emergency managers 
that are using notification systems that fit their budgets, 
that fit their needs. And we're not wanting to change that. We 
want to interface all of those different systems, instead of 
going out and rebuilding a whole network. Let's take the 
networks that we have today, and let's create standards of 
interface. And that's what we would encourage, is that, let's 
work on the standards for interfacing all the different systems 
that we have. Interface the BlackBerrys, interface the wireless 
carriers, interface the public television system, interface 
NOAA. All these different emergency notification systems are 
wonderful, they work great. We're not trying to rebuild the 
dots, we're just trying to draw the line between the dots. And 
that's what we're concerned with. We don't want to rebuild a 
good system. We want to take what we have and make it able to 
talk to each other, able to communicate with each other, 
without having to spend millions and millions of dollars 
replacing what's already there.
    Senator DeMint. Mr. Lawson?
    Mr. Lawson. Mr. Chairman, with public television we're 
talking about a classic dual-use opportunity. And our stations 
have raised about 1.1 billion to convert to digital, which was 
a subject of the full Committee's hearing a couple of weeks 
ago. Most of that's non-Federal. To use a system as the 
backbone for a Federal emergency alert system requires an 
incremental investment, and it requires the continuing 
maintenance of the infrastructure that we have. So, in our 
testimony we're asking the Committee to continue to support, 
the rebuilding of our satellite interconnection system, which 
is getting old and has to be replaced. And, second, FEMA is 
handling the national Presidential-messaging part of our system 
from their own resources, but to take--to provide resources for 
national and local connection to this backbone, for national 
and local origination, for messages of that level, extra funds 
are required, and that would be our request.
    Senator DeMint. Thank you. This has been most helpful. I 
appreciate everyone being here, everyone in our audience and 
the media.
    This hearing is adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Mr. Chairman, thank you for holding this hearing today. In the 
aftermath of the deadly Indian Ocean tsunami, we in the Senate, like so 
many around the world, asked two simple questions: ``Why couldn't we 
warn people that this tsunami was coming?'' and ``Would we receive an 
adequate warning if a disaster happened here?''
    Unfortunately, the issue of effective warnings is more complicated 
than it seems at first blush. As we have learned over the course of the 
year, there are several elements to an effective warning:

        1. It must detect or predict the hazard;
        2. It must communicate the warning to those in danger; and
        3. It must offer sound advice on how to find safety.

    Our witnesses today are likely to focus on the second problem--
getting the warnings to affected people. Coordination and the use of 
new technologies are very important. However, I would like to urge our 
witnesses not to forget the other two pieces of effective warnings. We 
need to invest in improving our detection and prediction of all 
hazards, including tsunami, volcano, earthquake, and weather hazards. 
In addition, we must ensure that people know what to do when they are 
warned. That means that Federal, state, and local governments need to 
have a coordinated response and need to educate at-risk communities on 
how to respond to natural or man-made disasters.
    With regard to communicating warnings to those in danger, I am 
excited to hear about new, off the shelf technologies that can improve 
and personalize warnings.
    Particularly in communications-saturated cities, like Washington, 
D.C., these technologies can help spread the word quickly and 
effectively.
    Of course, many places in this country, particularly the Western 
Pacific, lack ubiquitous telecommunications. In these places, we must 
focus on deploying robust, low tech solutions like sirens or radios on 
a stick that can deliver warnings where they are needed.
    NOAA, FEMA, and the White House have established a task force on 
effective warnings under the auspices of the National Science and 
Technology Council. The task force is working to improve both natural 
disaster and homeland security warnings.
    As you continue integrating the various Federal systems, I 
encourage you to involve a variety of state and local emergency 
managers and first responders to ensure that we preserve our existing 
capabilities at NOAA with respect to warnings for weather and other 
natural disasters; we improve, rather than interfere with, access to 
such warnings by local emergency managers and first responders; and we 
develop and deploy technologies appropriate to each community.
    The United States can do better at warning its population. I look 
forward to hearing our witnesses help us find a way forward so that we 
can make people throughout the Nation safer from whatever hazards 
threaten us.

                                  <all>

</pre></body></html>
